<html>
<title> - BEYOND FEDERAL SCHOOL MEAL PROGRAMS: REFORMING NUTRITION FOR KIDS IN SCHOOLS</title>
<body><pre>[Senate Hearing 111-242]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-242

                         BEYOND FEDERAL SCHOOL
                        MEAL PROGRAMS: REFORMING
                     NUTRITION FOR KIDS IN SCHOOLS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 31, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov





                  U.S. GOVERNMENT PRINTING OFFICE
54-566 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Beyond Federal School Meal Programs: Reforming Nutrition for Kids 
  in Schools.....................................................     1

                              ----------                              

                        Tuesday, March 31, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, U.S. Senator from the State of Iowa, Chairman, 
  Committee on Agriculture, Nutrition, And Forestry..............     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....    16
Lugar, Hon. Richard G., U.S. Senator from the State of Indiana...     3

                                Panel I

Cooper, Pat, President, Early Childhood and Family Learning 
  Foundation, New Orleans, Louisiana.............................     4
Felton, Reginald M., Director, Federal Legislation, National 
  School Boards Association, Alexandria, Virginia................    12
Garrett, Byron V., Chief Executive Officer, National Parent 
  Teacher Association, Chicago, Illinois.........................     9
Huehnergarth, Nancy, Director, New York State Healthy Eating and 
  Physical Activity Alliance, Chappaqua, New York................     7

                                Panel II

Brown, Miriam Erickson, Chief Executive Officer, Anderson 
  Erickson Dairy Company, Des Moines, Iowa.......................    33
Ehrens, Karen, Public Policy Chair, North Dakota Dietetic 
  Association, Bismarck, North Dakota............................    31
Izzo, Hank, Vice President, Research and Development, Mars 
  Snackfood U.S., Hackettstown, New Jersey.......................    35
Neely, Susan K., President and Chief Executive Officer, American 
  Beverage Association, Washington, DC...........................    37
                              ----------                              

                                APPENDIX

Prepared Statements:
    Baucus, Hon. Max.............................................    48
    Chambliss, Hon. Saxby........................................    50
    Brown, Miriam Erickson.......................................    52
    Cooper, Pat..................................................    59
    Ehrens, Karen................................................    72
    Felton, Reginald M...........................................    76
    Garrett, Byron V.............................................    82
    Huehnergarth, Nancy..........................................    87
    Izzo, Hank...................................................    94
    Neely, Susan K...............................................   100
Document(s) Submitted for the Record:
    American Frozen Food Institute, prepared statement...........   108
    ConAgra Foods, prepared statement............................   112
    Physicians Committee for Responsible Medicine, prepared 
      statement..................................................   114
    Potato Industry Child Nutrition Working Group, prepared 
      statement..................................................   119
    School Nutrition Association, prepared statement.............   122
    The Schwan Food Company......................................   123
    ``Safeguarding The Health of America's Children: The 
      Importance of Dairy Foods in Child Nutrition Programs''....   125
Question(s) and Answer(s):
Harkin, Hon. Tom:
    Written questions for Hank Izzo..............................   158


 
                        BEYOND FEDERAL SCHOOL
                       MEAL PROGRAMS: REFORMING
                    NUTRITION FOR KIDS IN SCHOOLS

                              ----------                              


                        Tuesday, March 31, 2009

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:35 a.m., in 
room 328-A, Russell Senate Office Building, Hon. Tom Harkin, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Harkin, Casey, 
Klobuchar, Johanns, Chambliss, and Lugar.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. Good morning. The Senate Committee on 
Agriculture, Nutrition, and Forestry will please come to order.
    Welcome to today's hearing. This is the third hearing of 
this committee toward enacting new legislation to extend and 
improve nutrition for our kids through school lunches and 
breakfasts, summer meals, Child Care Food Assistance, and the 
Special Nutrition Program for Women, Infants, and Children.
    In previous hearings, we heard how essential the Child 
Nutrition Programs are and about the evolving challenges facing 
our families, schools, and communities and States in supplying 
good nutrition to children, especially in a tough economy. We 
have received a lot of valuable suggestions. Modernizing and 
strengthening these programs is a vital part of our efforts to 
fight hunger, improve children's health, and boost education 
and learning.
    Over 60 years ago, President Truman and the Congress 
founded the Federal Child Nutrition Programs on the principle 
that sound nutrition promotes lifelong health and prevents 
illness and disease. Of course, that principle still stands, 
although details have changed. The nutritional and diet-related 
conditions and diseases plaguing today's kids include 
previously unheard of rates of overweight, obesity, diabetes, 
and blood pressure, things that didn't happen when I was young.
    That is why the child nutrition bill that we are writing is 
integral to reforming our nation's health system, and I want to 
emphasize that. We are trying to do health reform and to focus 
more on prevention and wellness. Well, a lot of that falls 
outside of the box of doctors and hospitals and into the realm 
of schools and how we feed our kids in their earlier years. 
Sound nutrition is indispensable to preventing illness and 
disease and helping Americans lead healthier and longer lives 
and reduce health care costs.
    Schools have improved the nutritional quality of federally 
sponsored meals over the years and progress continues but there 
is still room for improvement. But because they must meet USDA 
standards, meals reimbursed by USDA are, by and large, 
nutritious and consistent with the Dietary Guidelines for 
Americans.
    To see how America's children are really eating, though, we 
must look to the entire school nutrition environment, not just 
the School Lunch or Breakfast Program. We know from surveys and 
common experience that the majority of our schools offer 
children ready access to heavily sweetened beverages, highly 
salted snacks, sugary and high- fat goods and candy. These 
items are sold in vending machines, at snack bars, school 
stores, or right in the cafeteria in a la carte lines, which 
sell food in direct competition against USDA-sponsored meals 
that meet the nutrition standards.
    On an average day, only 62 percent of American kids who 
could do so eat the federally sponsored lunch. We know from 
research what any parent understands from common sense, that 
junk food obtained from vending machines, snack bars, school 
stores, or a la carte lines is far less nutritious, far less 
nutritionally balanced than meals that meet the USDA standards. 
Clearly, these sales undermine the $11.5 billion annual 
investment that taxpayers make in nutritious school lunches and 
breakfasts. But even worse, they are damaging the health and 
lives of our nation's kids.
    Today, we will hear from educators, parents, 
representatives of the food and beverage industries. Where 
schools have succeeded in improving the nutritional quality of 
foods and beverages they sell, a crucial element of that 
success has been adopting and carrying out clear nutrition 
standards and objectives. But unfortunately, such progress in 
schools across the Nation is extremely limited and dwarfed by 
the magnitude of the threat to our kids' health.
    Research shows a large majority of the local school 
wellness policies that were adopted by this committee in the 
2004 Reauthorization of the Child Nutrition Act are either weak 
or, even worse, simply collecting dust on the shelf. And 
despite more than a decade of effort, just a handful of States 
have adopted their own school nutrition standards.
    It is increasingly clear to me that we will continue to 
fail to provide American children the sound nutrition so vital 
to their health and well-being in the absence of effective 
Federal leadership and standards. In a decided shift over the 
past 15 years, many different stakeholders now broadly agree. 
Local school officials, education groups, people on both sides 
of the political spectrum, the medical and scientific 
community, and many in the food and beverage industry agree 
that the time has come for the Federal Government to establish 
sound, science-based nutrition standards for all foods and 
beverages in schools.
    Experience shows that school nutrition standards are 
feasible and practicable. Already, to suit the marketplace, 
food and beverage suppliers are offering new products that are 
nutritious and healthful and appealing to kids. Schools have 
learned that they need not lose revenue when they set standards 
and offer healthier, more nutritious food and beverages. Some 
have found they have even increased their revenue.
    Well, the task is not simple, but with commitment and 
leadership, it can be done and that is what we will hear from 
our witnesses today.
    Our Ranking Member is not here right now. I will hold the 
record open for his opening statement. I would yield to our 
former distinguished Chairman of this committee, Senator Lugar, 
who has always been interested in good health and nutrition, 
for any opening comments or statements.

STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM THE STATE 
                           OF INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I think 
you have recited the history well. Both of us have been 
discussing this issue with distinguished witnesses, as well as 
fellow Senators, for over a decade and perhaps longer, and with 
some headway. But this is a good year for us to concentrate on 
a subject in which sometimes we have dwelled on the thought 
that these programs ought to be handled by the States.
    You have pointed out, perhaps by the States that are not 
responding very rapidly, you almost come back to the common 
sense argument that we have also dealt with. Should we have a 
Federal lunch program? Can a child determine which State he or 
she is going to be in or what will be available? We have come 
to the thought that this is a national endeavor and that 
children do not have the option of choosing States depending 
upon the programs that are presented.
    So it is an interesting question today in terms of our 
Federal system as well as the responsibility of distinguished 
American firms who provide nutrition and to many who really 
want to work with us. So I am hopeful the hearing will be a 
constructive one and that we will make more headway this year.
    I thank you for this opportunity to make a comment.
    Chairman Harkin. Thank you, Senator Lugar. You have been a 
great leader in health for many years and a great example to 
many people for all of us to stay healthy. I appreciate that 
leadership.
    We would like to call our first panel, if we could: Dr. Pat 
Cooper, President of the Early Childhood and Family Learning 
Foundation of New Orleans, Louisiana; Ms. Nancy Huehnergarth 
Director of the New York State Healthy Eating and Physical 
Activity Alliance from Chappaqua, New York; Mr. Byron Garrett, 
the Chief Executive Officer of the National Parent Teacher 
Association from Chicago; and Mr. Reginald Felton, the Federal 
Relations Director of the National School Boards Association in 
Alexandria.
    If you would all take the witness stand. We have copies of 
your statements and they will be made a part of the record in 
their entirety, and so we would ask if you could just sum up 
your statement in 5 minutes or so.
    We will just go in the order I introduced you all, so first 
of all, we will start with Dr. Pat Cooper.

STATEMENT OF PAT COOPER, PRESIDENT, EARLY CHILDHOOD AND FAMILY 
          LEARNING FOUNDATION, NEW ORLEANS, LOUISIANA

    Mr. Cooper. Thank you very much, Senator, for allowing me 
to come and speak before this committee on such an important 
issue. I want to say right off the bat that I fully agree with 
you and would even expand on what you said about the connection 
to health reform by saying that there is a huge connection to 
education reform here that we seem to have left out in the 
equation, speaking as the former superintendent of schools in a 
couple of school districts where we have put in very visible 
and very quantitative school nutrition standards along with the 
additional Coordinated School Health Model that the Centers for 
Disease Control has allowed us to partake in, that we have seen 
some major, major results in terms of the kinds of things that 
you want to have happen in education reform, whether it be in 
improved test scores or attendance and it even goes to bigger 
issues, and that is kind of what I want to talk about today 
very briefly, is how this connects in a more broad way.
    When we talk about child nutrition, we talk about the 
obvious issues, obesity and the fact that a lot of our kids 
come from poverty situations where they don't have access to 
meals. Those are no-brainers to me. Those are things that we 
need to look at. But there is also the bigger issue, as a local 
school superintendent who is dealing with No Child Left Behind 
for the last few years and Goals 2000 before that and A Nation 
At Risk before that. The commonality of all of those education 
reform issues was that we really didn't pay attention to the 
health part, and that if you are not healthy--I know that is an 
oft-used term, but truly, if you are not healthy, you are not 
going to be able to learn, and a lot of our kids come to school 
without that luxury.
    So that larger issue is what I want to talk about and I 
want to start backwards with you because I don't want you to 
isolate child nutrition in a box here at the bottom. I want you 
to look at child nutrition as something that has everything to 
do with things like the failure of our corrections system, the 
failure of our mental health system, the failure of our health 
systems in general, because it all goes back to the failure of 
our public school system.
    If our public school systems don't have children that we 
produce as quality adults, then the rest of those systems are 
going to falter. Even if we have the highest test scores, if we 
don't have children that graduate from high school, and part of 
my new standard is I understand we have to have good test 
scores, but I want every one of my children to graduate, 100 
percent, with no baby, with no drug habit, with no criminal 
record, and hopefully not obese and not mentally ill. If I 
could do that, I think you would say we have the best school 
district in America. But the problem is, we don't rely on those 
health issues to give us any kind of--or take the temperature 
on what the rest of the products are going to be.
    So what we decided was, and I am just going to tell you 
very quickly, we decided to look at our school districts as 
places where we were going to do for all kids what you do for 
yours and I do for mine. We were going to approximate that. We 
know that what you need is a good two-parent household so that 
children can be taught what to do, what decisions to make, what 
things to eat, and be offered those kinds of things, but we 
know that doesn't happen for a lot of our kids.
    And so what we wanted to do with our schools was to create 
a family where we could nurture our children, and we used this 
nurturing idea to come to Maslow's Hierarchy of Needs, which is 
something we have all known forever and ever and ever, but I 
guess the problem is it doesn't cost any money so it doesn't 
ever get popular. You know, Maslow said that you had to be 
physically healthy in order to get to the point where you could 
maximize your potential and your opportunities, and the anchor 
for being physically healthy is the nutrition program. It is 
what we teach our children to eat, how they make their choices, 
and what we offer to them.
    In the districts where I have been superintendent, we have 
come into situations where we had lots of kids who were coming 
from houses and homes that weren't like yours and mine and 
didn't have the things that you provided to your children and I 
provided to mine in terms of just the basic needs, food and 
nutrition being one of those things. And we looked at the 
realities of why we weren't addressing that issue and we 
weren't addressing that issue very well because we were selling 
junk in our schools. We were not allowing time for kids to eat. 
We were allowing vendors--through no fault of their own, I 
might add, because this can be a win-win for everybody--to 
guide our nutrition standards.
    And so we had to make some decisions. So went to our 
community and we said, look, here is the condition of our 
children. We gathered all this baseline data that looked at the 
obesity and the diabetes and we looked at the asthma and we 
looked at all of the other attending factors that created a 
failed school system, because kids were not attending, or when 
they were attending, they weren't able to be taught as 
effectively. We also looked at it in terms of our staff, 
because we were doing as much damage to our staff as we were to 
our children.
    So we introduced to our community this Centers for Disease 
Control Coordinated School Health Model, and the very first 
thing we did with that model is we took Maslow's basic rung, 
which is physical health, and we took the CDC model and said, 
where on that model do we address physical health, and 
obviously there is the food and nutrition area, there is the 
P.E. area, there is the staff wellness area.
    And so we looked at what we needed to do to make that 
happen first, and it was almost like we were paving the 
highway, Senator, so that all of the other reform mechanisms 
could work, because if you don't have healthy children, then it 
doesn't make any difference how many computers you have or how 
many curricula you use or how many books you buy that our 
children are not going to learn, and if they don't learn, they 
are going to drop out. If they drop out, they are going to end 
up in whatever situations they end up in which are not good.
    So we looked at certain policies, school board policies, 
and keep in mind we had to do this on our own because there was 
no national standard. There was no national emphasis on this. 
Yes, there was a wellness policy, but as a superintendent, I 
can tell you, most of us ignored that. Most of us just sat it 
on the shelf, like you are saying. Most of us said to our food 
service director, go ahead and put something together because 
the State wants it. And that is not an indictment of 
superintendents in general, it is an indictment of the system, 
because it wasn't important because all we were thinking about 
was test scores and we weren't thinking about the fact that we 
can't have those better test scores if we don't have healthier 
children and healthier staff.
    So one of the things that we looked at was how do we make 
that work, and we got our own school board, and I will just 
praise them to the high heavens, because they were willing to 
take this on. We set up policies for more time for meals. We 
went to the Coke people and we said, look, why don't we redo 
the contracts and let us sell all water instead of your Cokes. 
See, I used to think God made water, but then I found out Coke 
made water.
    [Laughter.]
    Mr. Cooper. It is called Dasani. And so we said, we will 
put more machines in our buildings. We will put a machine for 
every 150 kids and we will have a school board policy that says 
children and staff can buy Coke--I mean, buy water whenever 
they want. They can take it wherever they want because the 
research says they need to stay hydrated. And all of a sudden, 
our principals were making more money than they ever made 
because we were filling up those water machines two and three 
times a day. All of a sudden, our kids were staying hydrated.
    And yes, we had some teachers that said, oh, don't let them 
bring it into the classroom. They will spill it. Well, it is 
water. Wipe it up. It is not No. 2 red Kool-Aid. There were 
issues there, but they weren't insurmountable issues.
    So all of a sudden, we took our vending out that had 
unhealthy things. We put vending in that had healthy things and 
we were selling more of it because we changed some policies and 
we made some right decisions for kids. We changed our classroom 
award policies. We changed our fundraising policies. None of 
those things hurt in any way the implementation of health 
standards in our schools.
    And I will close by just telling you this. When we did 
these things in conjunction with a Coordinated School Health 
Model, what we saw was that our reading scores and our math 
scores went up. What we saw was that our attendance scores went 
up. What we saw was that our staff wellness was much improved 
because we included them in this policy. What we saw was that 
our Breakfast and Lunch Programs went from 74 percent 
participation to about 94 percent participation.
    Now, part of that is a no-brainer. There wasn't anything 
else to eat because we didn't have the vending. But it was good 
food and it was food that our kids should be eating and we 
created the opportunity for it to be successful.
    And then the last thing that I would mention to you is that 
when you do these things in the context of coordinated school 
health, then what you do is you create a culture of health and 
environment in your schools.
    So I would ask you to do two things. Yes, we need to make 
this national law have more teeth so that superintendents pay 
attention to it. We need to make it so that it is part of a 
broader coordinated school health program that includes the 
staff wellness, that includes the P.E., because one of these 
things is not going to do the trick. I love the idea of going 
down to the child care with a much more intense effort, because 
it all starts right there.
    And then the last thing I would say is that if it is at all 
possible, connect this somehow with whatever NCLB is going to 
be in the future, because if we don't connect it to education 
reform, then it is going to be by the wayside.
    Thank you very much.
    [The prepared statement of Mr. Cooper can be found on page 
59 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Cooper. Very 
enlightening.
    Ms. Huehnergarth--did I pronounced that----
    Ms. Huehnergarth. Yes, you said it beautifully.
    Chairman Harkin. I thank you. Welcome. Please proceed.

   STATEMENT OF NANCY HUEHNERGARTH, DIRECTOR, NEW YORK STATE 
 HEALTHY EATING AND PHYSICAL ACTIVITY ALLIANCE, CHAPPAQUA, NEW 
                              YORK

    Ms. Huehnergarth. Thank you, Senators, for having me here. 
I am deeply honored and I think this is a very important issue 
and I am glad we are having this discussion here today.
    I am a concerned mother. I am also the Director of the New 
York State Healthy Eating and Physical Activity Alliance. I 
have been working to improve school food standards on both the 
local and State level since March 2002, which is when my then-
ten-year-old daughter came home from school and excitedly 
announced that she had won a fitness contest in gym class. Her 
prize? A big old candy bar.
    [Laughter.]
    Ms. Huehnergarth. The coalition that I represent is made up 
of over 100 public health, consumer, and education 
organizations, and we have been lobbying for passage of school 
nutrition standards in Albany, New York, since 2006. We also 
support what you are doing here, evidence-based national 
standards for foods sold and served outside the National School 
Lunch Program.
    The good news is that there is very strong support for 
standards now. It is no longer a controversial issue. The bad 
news is that two-thirds of the States, including New York, 
still have weak or no policies addressing the nutritional 
quality of foods and beverages in schools. And only 12 States 
have comprehensive policies that apply to the whole campus for 
the whole day and at all grade levels, and these are the kind 
of policies we need that are really going to make a difference 
and bring down--help bring down our obesity rate.
    There are forward-looking States, like Kentucky, Oregon, 
California, Rhode Island, Mississippi, and Connecticut that 
have very high standards and we can use them as a model. 
NYSHEPA, my organization, also urges you to propose strong 
national standards that do not preempt the States' ability to 
enact even stronger standards in the future. We believe that 
our kids will be healthier and live longer if both State and 
Federal Government have the power to improve on standards in 
the years and decades ahead.
    To date, New York State has not been able to enact updated 
nutrition standards, I am sad to report. It is not because 
there is a lack of interest. We have had at least nine bills 
promoting school nutrition standards in our legislature since 
2006. It is not because there is lack of support. We have a 
broad coalition of 41 prominent organizations that support 
standards. We have got the media on their side. There have been 
wonderful editorials from the New York Times, the Buffalo News, 
the Poughkeepsie Journal. And the public is on board. They 
actually make calls and write letters to our legislators and 
they support our school nutrition bills.
    But we don't have any legislation in New York State, even 
though two of our neighboring States, Connecticut and New 
Jersey, have enacted strong standards. So as a mother, I find 
this deeply upsetting. I want to know, are the kids in 
Connecticut and New Jersey more deserving of healthy food than 
our kids in New York State? This just makes no sense to me.
    NYSHEPA has come up against a number of impediments in 
trying to advocate for State nutrition standards. We have 
encountered powerful, deep-pocketed food and beverage industry 
opponents, who apparently are going to resist changes until 
they are literally forced by you to get healthy.
    We have State legislators who refuse to educate themselves, 
like my favorite assembly member who introduced the Cupcake 
Law, which is a measure that will make the cupcake the official 
State kids' snack in New York State. And it also would have 
provided that parents can bring any food into school that is 
legal. I would like to know exactly what those foods are.
    We have opposition from some school leaders whose districts 
have entered into pouring rights contracts or who fear that 
healthy standards are going to hurt their school finances.
    Now, let me get right to debunking a myth that schools will 
automatically lose money if they implement healthy nutrition 
standards. It is absolutely just not true. There are a number 
of surveys out there that completely debunk that, like the 
survey of 17 schools and school districts that was conducted by 
the U.S. Department of Agriculture and the Centers for Disease 
Control and Prevention. The results of that survey? Twelve 
schools actually increased their revenue and four reported no 
change.
    There is also two pilot studies that have recently emerged 
that evaluated the financial impact of switching to healthier 
school food and they found that the revenues increased at the 
majority of schools because losses from a la carte were offset 
by an increase in the National School Lunch Program meal 
participation and reimbursements.
    Now, in New York State, NYSHEPA has been conducting its own 
best practices interviews with schools that have voluntarily 
switched to healthier food. Most of these school food directors 
have told us the exact same thing. When the non-nutritious a la 
carte fare is removed, more kids purchase the reimbursable 
school meals. Because of increased participation, the district 
offsets the losses with increased reimbursements. Let me state 
this one more time a different way. When the junk is gone, kids 
buy the healthier National School Lunch Program lunch had 
districts will still run in the black.
    There was also a 2005-2006 study sponsored by the USDA's 
Food and Nutrition Service and it found that a la carte foods 
usually don't subsidize school meals. It is actually the other 
way around, because too often the cost of a la carte foods 
falls short of the cost of producing them. So school meals 
actually subsidize the a la carte.
    NYSHEPA has also learned that school vending contracts are 
not all that profitable for schools, and that is very good news 
for me. When a very young child that I know walked into our 
middle school cafeteria years ago and saw row after row of 
vending machines with chips, cookies, candies, and my favorite, 
six different kinds of candy- coated ice cream, she asked if 
she was at an amusement park. Fortunately, by the time my kids 
had entered middle school, clearer heads and a whole slew of 
aggravated mothers have prevailed and the worst of the junk 
food was gone. And so was the superintendent, who had 
complained that the nutrition advocates were trying to take 
away my Twinkies.
    [Laughter.]
    Ms. Huehnergarth. A national study found that school 
vending contracts raise only an average of $18 per student per 
year for schools and/or school districts. Another study found 
that soft drink sales in schools raised a median of 70 cents 
per student per year in middle schools and $6.38 per student 
per year in high schools. Also, please keep in mind that it is 
money from the pockets of kids that is funneled back into these 
school districts via pouring rights contracts, and where is 
that money coming from? From their parents.
    Typically, school districts only get to keep 33 percent or 
less of the profits. The overarching question I think we should 
all be thinking about is, should we really be financing our 
schools at the expense of children's health?
    With our nation's obesity rate through the roof and 
economic woes affecting every State, NYSHEPA believes that 
National School Nutrition Standards must be addressed this 
year. We can't afford to wait any longer. The more we invest 
now in our kids' nutritional health, the greater the payback in 
the future, namely a lower rate of obesity and obesity-related 
medical expenditures, lower rates for health insurance, an 
adequate number of healthy adults to staff our military and 
workforce, and longer and healthier lives for more Americans.
    Thank you very much for this opportunity and I hope you 
will act this year.
    [The prepared statement of Ms. Huehnergarth can be found on 
page 87 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Huehnergarth.
    And now we turn to Mr. Byron Garrett, CEO of the National 
PTA. Mr. Garrett, welcome.

    STATEMENT OF BYRON V. GARRETT, CHIEF EXECUTIVE OFFICER, 
     NATIONAL PARENT TEACHER ASSOCIATION, CHICAGO, ILLINOIS

    Mr. Garrett. Thank you, Chairman Harkin and Ranking Member 
Chambliss, committee members, and my fellow distinguished 
panelists. I am certainly honored, like all of my colleagues, 
to have the opportunity to speak before you today.
    I sit here on behalf of over five million members of the 
National Parent Teacher Association across the country and at 
Department of Defense schools around the globe, as well as our 
25,000 local units that actually run and function in 
communities across the country, and we are excited to discuss 
the significant issue of the upcoming reauthorization of the 
Child Nutrition Act.
    As the oldest and largest volunteer child advocacy 
association in the United States, PTA's legacy of influencing 
Federal policy to protect the education, health, and overall 
well-being of children has made an indelible impact on the 
lives of millions across the country. There is no question 
about that. This legacy includes the creation of kindergarten 
classes, a juvenile justice system, child labor laws, and 
mandatory immunizations for school children.
    One of the fundamental purposes of the National PTA has 
always been to preserve children's health and protect them from 
harm. You know, as early as 1899, we advocated for a National 
Health Bureau to provide families and communities with health 
information. In 1923, we worked to secure hot school lunches. 
In the 1940's and 1950's, we were involved in the establishment 
and expansion of the School Milk Program. We also worked to 
ensure the passage of both the National School Lunch Act and 
the Child Nutrition Act. I believe we have a little to say 
about this issue today.
    While the majority of the debate surrounding the upcoming 
reauthorization centers on the National School Lunch and 
Breakfast Programs, I would like to commend this committee for 
looking at these programs in the context of all available food 
options students have during school hours. It is imperative to 
consider the overall effect the regulations governing these 
programs will truly have when our students are given the choice 
to buy unhealthy snacks and sodas from vending machines on 
school grounds. It is critical to approach child nutrition 
holistically and assess issues in the entire school foods 
environment.
    For this reason, PTA is a strong supporter of the Child 
Nutrition Promotion and School Lunch Protection Act. School 
meals must meet detailed nutrition standards set by Congress 
and be updated regularly by the USDA in order for a school food 
service program to receive Federal subsidies. In contrast, the 
nutrition standards for food sold outside the meal programs 
have not been updated since 1979. Such foods include those sold 
in vending machines, cafeteria a la carte menus, and school 
stores.
    The only nutritional criteria for school foods sold outside 
of meals are that foods are of minimal nutritional value and 
they may not be sold in the food service area during meal 
times. You see, many low-nutrition foods are not considered 
foods of minimal nutritional value, and I quote that FMNVs, as 
they are referred to, despite their high content of calories, 
saturated fat, salt, or added sugars, and they can be sold 
anywhere on school campuses at any time during the school day.
    Three decades later, this outdated practice no longer 
stands up to the scrutiny of contemporary science, dietary 
patterns, or health standards. The best interests of our 
children demand that the nutrition standards be modernized.
    For more than 50 years, school meals have been regulated at 
the Federal level. Each year, the Federal Government invests 
billions in school lunches and breakfasts, approximately $11.7 
billion in financial 2008 alone. Selling low-nutrition foods in 
schools undermines this entire investment. The widespread 
availability of drinks high in sugar, chips, candy, cookies, 
and snack cakes in our schools also undermine our parents' 
efforts to feed their children healthy and nutritious meals. 
You see, each school day, parents entrust schools to care for 
their children all across our nation. They should not have to 
worry that their children will use lunch money to buy snacks, 
you know, honey buns and Snickers, as opposed to buying a well-
balanced meal.
    According to a national poll by the Robert Wood Johnson 
Foundation, 90 percent of parents and teachers support the 
conversion of school vending machine contents to healthy 
beverages and foods. In addition, a 2005 Wall Street Journal/
Harris Interactive poll found that 83 percent of all adult 
respondents think that public schools should do more to limit 
children's access to unhealthy foods, like snack foods, sugary 
soft drinks, and fast foods.
    All across our nation, parents and community groups are 
making remarkable strides in addressing this issue. For 
example, the Connecticut State PTA worked with a consortium of 
children's health groups to pass State legislation which limits 
the beverages that can be served to students from any source on 
school campus, including vending machines and school stores. In 
addition, the law incentivized schools to adhere to State 
health standards for food sold in schools, providing extra 
State reimbursement for their Free and Reduced Lunch Program. 
Only 1 year into the program, 101 school districts out of the 
179 that were eligible signed on to the new standards.
    At Aptos Middle School in San Francisco, California, the 
school principal created the Aptos Parent Teacher Student 
Association Student Nutrition Committee, convened by a PTA 
member, which included parents, students, teachers, and staff. 
They created a plan to eliminate junk food from the entire 
school store. Non-nutritious foods were gradually eliminated, 
being replaced with healthy alternatives. Although the school's 
food program was operating at a deficit the year before, it 
netted a $6,000 profit for the school district's Student 
Nutrition Services Department after implementation. As a result 
of the pilot's success, the school district and that program at 
Aptos has now been instituted and serves as a model for the 
district's efforts to improve nutrition at its other middle and 
high schools.
    These and other efforts across our nation have helped, but 
the burden of removing unhealthy foods and beverages from our 
schools cannot, should not, and must not rest solely at the 
local level. Unlike other aspects of education, school foods 
have been primarily regulated at the national level since the 
Truman administration. Furthermore, the majority of the 
nation's 14,000 school districts are not equipped to develop 
science-based nutrition standards for schools, and only 30 
percent of the school districts prohibit the sale of junk food 
in school vending machines nationwide.
    A minimum Federal protected nutrition standard for food 
sold outside of school meals is necessary to protect the 
integrity of not only the School Lunch Program, but the health 
of all children in our nation's public schools. After all, the 
nutritional needs of our children remain the same whether they 
live in Iowa or Georgia. It is untenable to force parents to 
fight for healthier school foods one school at a time, 
reinventing the wheel after wheel after wheel while facing the 
same obstacles at each and every turn. Reasonable national 
nutrition standards would ease this burden while allowing for a 
great deal of local control over the implementation of such 
standards. Without question, the decisions made during this 
reauthorization will not only impact our schools, our 
hospitals, our economy, our military, and most importantly, our 
homes.
    Thank you, and I will be very happy to respond to questions 
along with my colleagues.
    [The prepared statement of Mr. Garrett can be found on page 
82 in the appendix.]
    Chairman Harkin. Mr. Garrett, thank you very much for a 
very powerful statement.
    Now we turn to Mr. Felton on behalf of the National School 
Boards Association. Mr. Felton?

STATEMENT OF REGINALD M. FELTON, DIRECTOR, FEDERAL LEGISLATION, 
    NATIONAL SCHOOL BOARDS ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. Felton. Good morning, Mr. Chairman, Ranking Member, and 
other members of the committee. Again, it is an honor for us to 
be here to discuss this very, very important issue. As you 
know, we represent over 15,000 school boards across the nation, 
including 95,000 school board members.
    Let me just say that, without question, NSBA believes that 
child nutrition is vitally important to fostering a healthy and 
positive learning environment for children to achieve their 
full potential. Local school boards across this nation continue 
to actively promote nutrition education, physical education, 
and obesity prevention.
    The issue to us is not whether child nutrition is 
important. Rather, it is whether child nutrition would 
significantly improve by additional federally mandated 
nutritional standards on all foods and beverages. To this 
question, in our view, the answer is no. While there is the 
expectation that federally subsidized programs may be 
accompanied by certain restrictions, such restrictions are not 
fully supported within local communities regarding all other 
foods and beverages available to students.
    The next question should be, what behavioral changes might 
one expect at the local school level from such additional 
restrictions and whether such new patterns of behavior add 
value to the intent and purpose of the additional restrictions. 
From a local school board's perspective, what is likely to 
happen in our view is that there will be significant increases 
in purchases beyond the school grounds, particularly where high 
school students and others are permitted to leave the campus 
for lunch.
    Second, we believe there will be increased regulatory 
disagreements in schools over what foods and beverages should 
and should not be sold as new products are developed and 
marketed.
    And third, we believe there will be increased 
misunderstandings and complaints from parents regarding the 
banning of certain foods and beverages based on perceptions of 
school officials being culturally incompetent.
    Additionally, local school boards view any Federal efforts 
to regulate or codify into statute the types of foods and 
beverages that can and cannot be sold in schools throughout the 
entire school day and at school events as overly intrusive and 
burdensome to school districts. School districts believe that 
such efforts dismiss the work of wellness councils and usurp 
the jurisdiction of local school boards to create a policy that 
reflects the values and financial capabilities of local 
communities.
    In our view, these new behaviors will result in several 
unintended consequences that will require the redirection of 
additional time and resources away from the schools' primary 
responsibilities. NSBA urges you to reconsider any efforts to 
enact expanded legislation.
    Now, beyond the concerns over the operational impact of 
such expanded restrictions, local school boards are also 
concerned with the potential impact on local budgets and 
revenue streams. As you are aware, the primary responsibility 
of local school boards is to deliver high- quality educational 
programs to ensure that such students are career and college 
ready to compete in a global society. The reality, however, is 
that many school districts promote the sale of foods and 
beverages as a means of supplementing the cost of athletic and 
other extracurricular activities, which would further redirect 
the ability of school districts to fund these activities. The 
expansion of such restrictions on all foods and beverages could 
substantially reduce revenues.
    Therefore, NSBA urges Congress to refrain from enacting 
legislation that would further restrict the authority and 
flexibility of local school boards to sponsor and promote 
revenue-producing activities involving foods and beverages 
outside the current federally subsidized programs.
    Such school districts are caught in a bind between demands 
to deliver high-quality education and, unfortunately, an 
economic crisis. A national vision for child nutrition is 
needed, but that vision cannot convey nor equate to Federal 
mandates. The Federal Government must acknowledge more broadly 
that the efforts over the previous decade to employ a top-down 
approach has not worked. In our view, we suggest the Federal 
Government play a new role to facilitate, not dictate.
    As you are aware and has been mentioned earlier, under the 
Child Nutrition, Women, Children, and Infants Reauthorization 
Act passed in 2004, every school district was required to 
participate in Federal meal programs to enact wellness 
policies. A study conducted by the Pennsylvania State 
University on local wellness program implementation, at least 
among Pennsylvania local school districts, indicates that 84 
percent of the districts have written implementation or action 
plans and that 56 percent of the school districts reported that 
there are more opportunities for students to be physically 
active in classrooms outside physical education, and 58.2 
percent of the school districts reported that their students 
are receiving higher-quality nutrition education. School boards 
across the Nation are actively engaged with their communities, 
as they should be, to create policies and requirements to have 
the full support of the people in their local communities.
    In closing, we want to reiterate that local school boards 
are committed to improving child nutrition and clearly view 
wellness policy as important. As these school boards' actions 
increase, positive changes in behavior will take place, 
reflecting the will of the local communities. We are very 
committed to changing attitudes and sustaining positive 
behavior related to nutrition. Therefore, we feel that 
community-based decisions are much more effective in the long 
run than mandates from the Federal Government. Federal mandates 
in our public schools cannot be the vehicle for change in 
society.
    In order to significantly improve child nutrition and 
health, it will not be achieved through expanded authority of 
the Secretary of Agriculture. Rather, it will be through the 
active engagement of local communities that hold strongly to 
the belief that those at the local level should best make such 
determinations.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Felton can be found on page 
76 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Felton, and thank 
you all for your wonderful testimony.
    We will open a round of questions for just 5 minutes each, 
and I will start in order. Dr. Cooper, again, I followed your 
career paths. I remember we had, I think, one of your school 
nutrition persons up here from McComb, Mississippi, a few years 
ago. I remember her testimony, because I have cited it a lot, 
and I think she was under your jurisdiction at that time, in 
which she said about changing the foods they put in vending 
machines that they found that they didn't lose any money, that 
they really maintained the same amount of income from the 
vending machines when they put water and healthy snacks and 
things in them.
    She said something that I will never forget. She said, you 
know, we found that kids are funny. They love putting money in 
machines.
    [Laughter.]
    Chairman Harkin. They don't much care what comes out, they 
just like putting money in them.
    [Laughter.]
    Chairman Harkin. And so when they put the healthier foods 
in, kids kept putting their quarters and stuff in the vending 
machines. I have always remembered that.
    But the other thing I remembered was her testimony, and now 
yours today, about all that you have done. If you would just 
talk just a couple of minutes more about the skepticism and 
resistance you have met when you started doing this and how you 
worked through that. What would you say to people who say, 
well, let each school district decide it. You have done this on 
your own. You have done this in different school districts. 
Mississippi has done a great job in this, but other States 
haven't.
    So again, a two-pronged question. How do you overcome the 
resistance, and what was that like, and second, address 
yourself again to the idea of whether we should just leave this 
to States and local jurisdictions or whether we should extend 
the nutritional guidelines to all foods sold in schools. That 
is really the essence of what we are talking about here in this 
legislation this year.
    Mr. Cooper. Yes, sir. Overcoming the resistance, well, part 
of it is persistence, but part of it was gathering the baseline 
data that we could present to the community and to the school 
community that would indicate that our children were very 
unhealthy and that we presented the data also that connected 
better physical education, better food and nutrition options in 
schools to better academic achievement. The data is out there. 
We just don't ever take the time as educators to collect it all 
and present it to the lay community in a coherent, uniform 
manner.
    The other part of this was to go to the school communities, 
specifically the principals and the PTAs, and outline a way for 
this to be a win-win, to say from the start, we don't intend to 
cut your revenue. We don't intend to harm your programs. But we 
intend to reach your goals in another way. After our Food and 
Nutrition Director came and spoke to you earlier, years 
earlier, about 2 years after that, we then eliminated all of 
our vending machines that had food in them and all we had was 
the water machines. But we put one water machine for every 150 
students, created that policy that allowed students to buy 
water and take it wherever they wanted, and we increased the 
intake of funds to our principals by some major, major 
percentages just because of that one move.
    So I think the first thing, we have to make it a win-win. 
We had to go to the Coke folks and say, it is a win-win. We are 
not going to take your product out, we are just going to change 
the product that you are selling and we are going to allow you 
to sell it 24/7 instead of just after one o'clock in the 
afternoon. So we tried to present this as a win-win to people.
    And I think if you take your time and you have the baseline 
data, because all of us, when we bring the baseline data to our 
community saying our children are less healthy now than they 
have ever been, when you bring the pediatricians in your 
community to speak to your school board to say, this is what I 
am seeing in my practice now, it not only gives the school 
boards information, but in some ways it gives the school board 
liability, because now they know that we have a hand in 
creating a generation of unhealthy children.
    So that is how we did that part, and then the second part 
of your question was----
    Chairman Harkin. Well, I guess, and I would ask everyone, 
since my time is running out, do you see this as a part of the 
whole overall health reform that we are trying to do in 
America, in terms of prevention and wellness? Do you see this 
as----
    Mr. Cooper. I think it has a direct connection to how our 
children perform in schools. I do not think we are going to do 
this locally, by and large, because we have too many other 
things that we put ahead of it because they are supposedly 
important, and they are important. But unless you codify this 
some way nationally, then I think people are going to pick and 
choose. And you will have some superintendents that do it, some 
boards that do it, but, in fact, most will not because they 
will go to the point of highest pressure, and that is the laws 
that are there that require the academic kinds of things.
    Chairman Harkin. Thank you very much, Dr. Cooper. My time 
has run out.
    I will yield to our Ranking Member, both for an opening 
statement and questions that he might have. Senator Chambliss?

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well, thank you very much, Mr. Chairman, 
and let me apologize for running behind this morning. I will 
submit my opening statement for the record.
    [The prepared statement of Hon. Saxby Chambliss can be 
found on page 50 in the appendix.]
    Senator Chambliss. Let me just thank all of our witnesses 
for your attendance here this morning. It is very informative 
testimony there.
    I want to start out with an anecdote. I mean, this issue of 
obesity obviously among our children is of concern to all of 
us, and I think you have all expressed some very strong 
opinions about the direction in which we ought to go. I 
particularly appreciate the mention by you, Mr. Felton, and 
you, Dr. Cooper, about an issue that I think is just as 
important, if not more so, than the issue of what our children 
are eating and that is what they are doing when they are not 
eating. It both reflects on their abilities and their 
concentration in the classroom, certainly, but primarily their 
physical activity outside.
    You are exactly right, Dr. Cooper. If we just concentrate 
on nutrition, we are not going to solve this issue. It goes 
well beyond that and we have to incorporate some kind of 
physical exercise program in every school in America to be 
coordinated along with a nutrition program.
    Mr. Felton, I am particularly appreciative, too, of what 
you said about the Federal Government knowing better about how 
children in every school district in America react to, No. 1, 
what is served to them, and the importance of the ability to 
have flexibility on the part of local school boards relative to 
what is fed.
    My anecdote about that is I have got a 12-year-old grandson 
who is picked up by his grandmother on a regular basis when she 
is at home. She is a 30-year classroom teacher, a retired 30-
year classroom teacher, so she has had a lot of experience with 
nutrition in schools. John immediately has to go somewhere and 
get a snack after school. There is nobody on that panel that 
would say that the snack that John gets every day when he 
leaves school is nutritious. But the fact is, John does not 
have an issue relative to obesity. In fact, it is on the other 
end. We have to keep John loaded up with calories because he is 
so active from a physical standpoint. That is why I think your 
statement, Mr. Felton, is important, from a flexibility 
standpoint and why, Dr. Cooper, you are exactly right relative 
to physical exercise there.
    And also, the second point about this is that unless we 
engage the parents in this issue, it is a losing exercise from 
a Federal policy standpoint. So my question to each of you, and 
Dr. Cooper, we will start with you, is what is your experience 
relative to programs that work from the standpoint of engaging 
parents on this issue of nutrition, on this issue of physical 
exercise, and on this issue of having an understanding on their 
part of the issue of child obesity?
    Mr. Cooper. Well, I think those are two really different 
issues because most parents that I have worked with over the 
years really believe in the whole physical education part of it 
and they question why we are taking that away. They question 
why we don't let our children have a good quality physical 
education program.
    The nutrition part is a little bit harder because we are 
that generation that is probably--our children are probably 
going to live a shorter lifespan than we are, but we are not 
going to live as long a lifespan, either, and so we have to do 
a lot of education, and we do it through the PTAs, but we have 
also done it through community meetings, where we have brought 
in the data that I am talking about. We brought in the health 
experts that could say to the community, we are going to 
restructure our school district, but we are going to use 
physical health as the baseline, and we gave them the data 
about the condition of our children. We gave them the data 
about the health care costs. We gave them all that kind of 
information that they can understand and as a reason for us 
beginning to look at the nutrition issues.
    And then the other part of it was going to those groups, 
like the football boosters and the PTA folks and all of them to 
say, we are not trying to shut you down, but here is why we 
need to do this. There is a reason. And showing them with the 
data and with the research that you are not going to lose money 
and that it is better for our children. So there has to be some 
effort in that regard.
    Ms. Huehnergarth. The school districts that I have gotten 
to know that have made healthy changes have done a few things 
right. First of all, they have communicated with the parents, 
just like Dr. Cooper started to say. They just don't lay down 
the law and expect families to understand. There is some 
outreach. There are newsletters that go out explaining the 
changes, explaining why they are undergoing them. Teachers 
actually talk to the students and explain what is going on. 
When there are changes in the cafeteria, sometimes there is 
sampling in the cafeteria so that kids get to taste foods and 
get to be encouraged to try new things.
    The other thing I think we have to think about is what we 
call reverse learning. You know, a lot of times kids come home 
from school and they teach parents things. One thing that I 
learned was to turn off the water tap, because my kids told me, 
don't let it run too long. You are going to waste water. Well, 
it is going to be the same thing with healthy foods and with 
physical activity. If kids are eating healthy, then they are 
going to come back to their parents, demand those foods. They 
are going to ask their parents to go out and enjoy physical 
activity with them. And I think that is how families will 
learn.
    Mr. Garrett. Senator, and I guess what I would share with 
the committee, obviously speaking on behalf of the PTA and 
parents across the country, the reality is, parents, as I 
mentioned in my statement, parents expect that when their 
children go to school, that they are provided with healthy 
options. And so parents do all they can, I would say, between 
the hours of 3 p.m. in the afternoon until 6:45 a.m., roughly, 
in the morning to do some education about nutritious items, 
what it is you should eat. And even within classes, we fund 
from an educational perspective across the country, through 
Federal dollars and State dollars, nutrition education, telling 
children how many portions you need to eat of what, whether it 
is the food pyramid from USDA. We do all of those things. But 
then a kid will exit a classroom at two o'clock in the 
afternoon and go right to a vending machine and we then ask 
them to practice what they have been taught and the reality is, 
when they look directly at the vending machine, they have no 
option. Their options are to choose between Cheetos or perhaps 
Baked Lays, a form of potato chip, but their options are very 
limited. So what they may do outside of the confines of the 
school campus, one could recognize that I may choose on my own 
time to choose a Twinkie. I may choose to do that at four or 
six o'clock in the evening. But during the school day, in this 
particular environment that has spent so much money and 
resources saying we should have a qualified breakfast and 
lunch, we should make sure children have nutritious 
opportunities. When they then are forced to make a choice, we 
limit the options. We don't even give them the ability to make 
the appropriate choice because it is not readily available to 
them.
    And so what I would share with you is that our parents 
would recommend that while we help raise money for schools and 
we raise money for a host of issues and we believe that there 
needs to be a level of local authority, we believe that there 
is sufficient room within how this is structured to help 
facilitate this conversation. It is not dictatorial by any 
stretch, but there needs to be some universal standards.
    The last thing I would say is this. As of 2000, and 
everyone probably knows this, but if you don't, approximately a 
third of our children in this country are in danger of having 
Type II diabetes. So there is no question about who is 
overweight, who is obese, what are the ramifications and 
impacts. The other piece you look at is that approximately 9 
percent of all citizens in this country, our health spending 
for approximately 9 percent of them are related to obesity and 
overweight issues. We have got to figure out that if adults 
have the same issues, we begin in the educational setting in 
trying to rectify that, to teach the appropriate habits but 
also to give one an opportunity to exercise the right choice 
throughout their educational experience.
    Mr. Felton. Senator, I will offer you, as I said before, 
that is really not the question. I think school boards across 
this nation support nutrition. There is no school board out 
there that says, gee, I would rather have unhealthy kids. I 
think it is a matter of how we engage parents and how we engage 
communities so that they again have the education, so that they 
can make the choices. Again, our position is that there should 
be choices, but that the restrictions and the parameters of 
that ought to be left to local communities and States, that the 
Federal Government should leverage their authority and their 
funds with the States so that programs are better incentivized 
so that we do begin to see what is happening.
    The reality is that parents will understand what is good 
for their children, and of course they will support that. But 
when school boards are sitting with parents and communities and 
they are saying, here are all the things we want for your kids. 
We want to have a laptop computer with every child. We want to 
have a teacher-student ratio that ensures that your children 
will succeed. We want to have safe campuses so that you are 
free from abuse and bullying. We want clean campuses that are 
free from toxics. We want a transportation system that allows 
your children to participate in extracurricular activities and 
perhaps other forms of exercise. We want facilities that are no 
longer have code violations in which we must place our kids day 
to day. And then the question to parents and school board is, 
how do we keep that kind of balance, because these are all 
important.
    And so our point to you is that States and local school 
districts need the flexibility so that they can reflect the 
desires of local communities who have to address all of these 
issues. And again, we support child nutrition, but let us 
understand that when you begin to deal with a school district, 
it has to deal with a number of broad issues that each of us 
feels is very, very important.
    Chairman Harkin. Thank you very much.
    Senator Casey, we will turn to you now.
    Senator Casey. Mr. Chairman, thank you very much, and I 
know you may have to go, and when you do, we will work that 
out.
    I want to thank our witnesses for your appearance today but 
also for the work that you do, the daily challenge of meeting 
the obligations we have to our children. I guess I wanted to 
start with kind of a broad question, and this would go really 
to several of our witnesses and not anyone in particular. But 
if you could just tell us about the challenge that we face with 
regard to the fact that we want to have a national commitment 
to better nutrition, and I am a great believer that every child 
is born with a bright light inside them which represents, of 
course, their potential, and that our obligation, those of us 
who are elected officials certainly, as well as other 
officials, have an obligation to make sure that light burns as 
brightly as that potential indicates. The only way we can do 
that is to have every child get the benefit of health care and 
nutrition and early education. Of course, they are all 
interrelated.
    I think now we are beginning to realize that CEOs know this 
now better than they used to, that if we don't work on those 
issues in the dawn of a child's life, you can't even begin to 
talk about an educated person or a high-skilled person or a 
stronger GNP for the country or economic growth or competing in 
a world economy. All those phrases we hear over and over again 
start with that one child and the investment we make in him or 
her.
    But one of the challenges we have is we have a country that 
I think believes we should make a national commitment, but we 
also have school districts and a strong tradition of local 
control and a tradition that I am well aware of in 
Pennsylvania. We have 501 school districts in the State of more 
than 12 million people. But as much as there is a State 
responsibility for education, we still have a very strong 
tradition of local government and local school district 
governance.
    So how do you make that work in the context of a desire for 
national standards, the desire for a national commitment, with 
a tradition and the reality, not just a theory, but the reality 
of local control, local decisionmaking? And some of you may 
have addressed this in your testimony. We are juggling hearings 
today, so if this is redundant, I am sorry, but it doesn't hurt 
to repeat yourself in Washington once in a while.
    [Laughter.]
    Senator Casey. But do any of the four witnesses want to 
kind of begin to tackle that?
    Mr. Felton. Well, certainly, I commented earlier, it cannot 
be a fragmented approach. I talked about the need for a 
national vision and the fact that that vision has to understand 
how our States and local school districts operate.
    We know when we want folks to take on different behavior 
patterns, we provide incentives, and certainly we are not 
opposed to any Federal incentives that would encourage States 
and school districts to begin to move toward nutrition 
education, and health standards, just as we have done in other 
facets of basic community life. But the point still remains is 
that unless the Federal Government wants to take on all of 
the--the whole issue, it can't be fragmented. I mean, even if 
we look at our subsidized food programs, we know that there are 
some issues with reimbursement funds. We know that there are 
issues with commodities in terms of the nutritional value of 
those products. And yet we want to compartmentalize a single 
piece of the puzzle.
    And our advice is, if we are prepared to deal with it in a 
comprehensive way, we all know that it requires, again, active 
engagement through incentives, through programs, through 
education, of the parents, of the major stakeholders.
    Mr. Garrett. Senator, I would offer that it is not an 
either/or conversation, so it is not an either/or. It has got 
to be a ``yes and.'' I guess I would share with you, from a 
national perspective, leadership is needed on this issue. It is 
not as if the opportunity to create wellness policy--as Dr. 
Cooper had mentioned earlier, it is not as if the opportunity 
to create wellness policies does not currently exist. The 
reality is that in communities across this country, over two-
thirds of our States lack State standards or they are extremely 
weak when it comes to nutrition for items that are sold outside 
of the school timeframe at some point in time, in order to 
protect the overall budget.
    So when you look at this as a comprehensive issue, when you 
think about health care spending, and I will say it again, 9 
percent of our funding federally on medical issues are 
associated with folks who are overweight and obese. We have got 
to figure out how we offer as much guidance as possible and as 
much structure. I contend, being a former K-8 school principal, 
that a superintendent or school board would still have enough 
latitude within whatever guidelines that might be established 
to exercise that flexibility to meet their appropriate needs 
locally.
    But I will tell you that parents every single day when they 
drop their kids off, either at the bus stop or they physically 
take them to school, they take them under the presumption, and 
rightly so, that they are going to an environment that is going 
to provide healthy choices for their child. So basically you 
ask a student at the age of six or eight or 12, who may be on 
the School Lunch Program, who may not be, when they walk 
through a school line and have a variety of options, you force 
a six- or 7-year- old to choose between a Twinkie and a bag of 
carrots. I would like to think that a 6-year-old could make 
that same distinction, but we have grown adults in this country 
that can't make that distinction themselves.
    So my suggestion to the committee as you consider these 
potential recommendations for reauthorization is to understand 
the reality of what plays out in every single school across 
this country, and by creating a similar set of national 
standards that are somewhat prescriptive but still provide an 
appropriate amount of latitude, I think would still accomplish 
the objective, which is to ensure that children have healthy 
options on campus throughout the school day.
    Mr. Cooper. I would like to answer that question this way, 
if I might, from a school superintendent standpoint, and that 
is that we have to frame this up the same way that we frame up, 
why do we insist on water quality standards? Why do we insist 
on air quality standards? It is we are looking at food quality 
standards. Why do we insist on immunizations? See, we have 
immunizations now and what we know is we have far fewer kids 
that are contracting polio and those other diseases than we 
have kids that are contracting obesity and the related diseases 
that come from there. We have obliterated polio. We can 
obliterate obesity, too, but we have to have some standards 
that are ranked right up there with air and water and 
immunization.
    Senator Casey. I know I am out of time----
    Ms. Huehnergarth. I was going to say, if you don't do it, 
it is not going to happen on the local level. You just don't 
have the base of knowledge at the local level that you even 
have at the State and Federal level. You have superintendents 
and principals and teachers that not only don't understand this 
issue, but refuse to educate themselves. So we really do need 
national standards.
    Senator Casey. Thank you very much.
    Chairman Harkin. Senator Lugar?
    Senator Lugar. Let me thank the panel, because you have 
offered, I think, diverse views and that has been helpful.
    I come with some prejudices just from experience, and 
Senator Casey has mentioned he has had some experiences. My 
first responsibility was as a school board member elected 45 
years ago in Indianapolis, and the first issue we had was one 
of school food. The problem was that so-called latchkey 
children in public housing projects got no breakfast at home, 
came into school and did not perform well. That had been going 
on for quite some time. From a local community standpoint, they 
could have helped alleviate the problem, but they didn't.
    The Federal Government came along with the program to help 
out breakfasts for latchkey children and one would have thought 
that in a humanitarian way our school board would have leapt at 
that opportunity. Wrong. They said, this is the Federal 
Government intruding on the Indianapolis school system. The 
Indianapolis News editorialized that this would be a violation 
of everything Indianapolis ever stood for. Unbelievably, 
Indianapolis took no Federal aid for anything at that point. I 
say that was unbelievable, but that was 45 years ago.
    And so, as a matter of fact, by a vote of about four to 
three, as I recall, our school board decided to take those 
lunches to help those children get nutrition, with the 
condemnation of the Indianapolis Chamber of Commerce, the 
newspapers, the citizenry. Those are the realities.
    I appreciate very much, Mr. Felton, your representation, 
and as a school board member, we fought everybody. But at the 
same time, my own judgment was that when we came down to even 
more serious issues, such as trying to desegregate even a part 
of our school system racially, once again, the local situation 
was very, very negative. And the thought that the Federal 
Government could ever intrude in this, which they did 12 years 
later with the Federal court suits and the whole situation was 
desegregated, but a sense at the local level at that particular 
time failed.
    Now, that is history and now we do not want to resegregate 
the school system or take the children's lunch away. This is 
the reason the issue, I think, is an important one, that by and 
large, we are talking about very minimal changes. I think the 
food companies, by and large, the progressive ones are prepared 
to work with us. They understand the problem. The problem of 
obesity now that we are discussing is at least a different one 
than people not having food at all. So we made some headway in 
the last four decades or so.
    But at the same time, we won't make it rapidly in 
Indianapolis, my hometown. The inner-city school situation is 
even more difficult than it was when I was on the board, and 
this is with regard to academic standards, quite apart from 
nutritional ones.
    So this is why, if I have a prejudice in the situations, I 
want to speak to it.
    Now, I appreciate that even if we all are motivated 
correctly, should there be some panel in the Department of 
Agriculture, somebody that advises this committee or the 
Congress as to how do we fight childhood obesity? Is there at 
this point some body of knowledge, given all the tests and 
research that you have talked about, that even if we wanted to 
regulate the vending machines, we come to some conclusion as to 
what the minimum standards ought to be for the machine, quite 
apart from the hours that it is open or the availability and so 
forth?
    In other words, what I am looking for now is some 
confidence in terms of the data that we really fight childhood 
obesity well, or that technically we can work with food 
companies and others who want to share that thought as opposed 
to simply being perceived along with the maybe local school 
boards who want to retain all controls regardless of what 
happens as the enemies of the project? Do any of you have any 
idea how you would proceed if you were to determine what is in 
the machine or what is available? Is there a body of standards 
that is available to us? Ms. Huehnergarth?
    Ms. Huehnergarth. There was a report by the Institute of 
Medicine making some very sensible recommendations for school 
nutrition standards and I think that is one place that you 
would start. They really described exactly what should be sold 
in elementary, middle, and high schools. I think they laid out 
the road map for us.
    Senator Lugar. Good. So we have at least one reference 
point there. Is there any general agreement among school 
administrators, State, local, or anywhere else, that those 
standards look reasonable? Mr. Felton?
    Mr. Felton. Well, as we talked earlier, sir, the issue is 
that there are several reports that make recommendations, but, 
I mean, there isn't a unanimous agreement that what is out 
there is, in fact, what we should have, and that obviously 
creates a challenge for implementing such a law, which is one 
of the points that we raised.
    Mr. Garrett. Senator, I guess I would just add to that, 
while there may not be consensus or uniform agreement on what 
should be contained within the machine, there is certainly 
consensus on what is not healthy for our children and that data 
is very clear and----
    Senator Lugar. So there is some minimum standard, at 
least----
    Mr. Garrett. Correct, and so I guess what I would offer, 
and having worked at USDA before, not in the Food and Nutrition 
Service, but obviously very familiar with most of the programs, 
I would offer that the expertise is available to determine what 
may be the appropriate minimal standards. And again, you are 
talking about a very--what I would consider to be a small-scale 
change, but again still providing folks with enough flexibility 
and latitude.
    I think when you hear from other folks, I guess on your 
second panel, they will also talk about the differences when 
you begin to look at if you utilize local school boards in 
setting their own policies, the disparity between what could be 
contained, what type of content, what size product, what 
nutritional level. I mean, I believe--I guess the end of it 
would be I believe that there is the potential and the research 
does exist and the folks are there to convene to really create 
a minimum set of standards that would be across the board that 
could be applicable in this situation.
    Mr. Cooper. I would just like to mimic that a little bit. I 
think the precedent somewhat has already been set in various 
areas. For instance, when I apply for an Early Reading First 
Grant from the Federal Government, they only allow you to use 
practices and curriculum that are evidence- based, and I think 
that is the same way we approach this. There might not be a 
single menu, but there is a wealth of evidence out there that 
gives a world of choice still to the local school boards that 
keeps them within the realm of healthy offerings.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. [Presiding.] Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you to all of you.
    My fellow colleagues here have heard me talk about this 
quite a bit. When I was listening to Senator Lugar, I was 
thinking the same thing, that we just--it is not working for so 
many of our kids. My daughter was in a school that was 90 
percent free and reduced lunch in Minneapolis and I saw 
firsthand what those kids were eating out of the vending 
machines. Even though people would donate food and the school 
would have some yogurt there, I saw what they went and picked, 
exactly what Mr. Garrett is talking about. Then we move her to 
Virginia where she is in a school with much different 
demographics and the kids are bringing carrots to eat for a 
snack.
    I just think it is unfair if we think that kids in certain 
urban districts are going to have the same kind of food that 
their parents are going to send to school with them. They are 
not. Kids get, what is it, 30 to 50 percent of their calories 
in school on school days, and this just isn't working with 
them. I mean, the proof is in the statistics, Mr. Felton, of 
how these kids are getting obese, and the proof is also in what 
I have seen of these own kids' lives. And so I am just devoted 
to changing this. We are not going to be able to keep going the 
way we are going.
    So my question is, first of all, Dr. Cooper, with this idea 
of allowing the Secretary of Agriculture, which I support, to 
put forth some kind of a dietary standard nationally, how do 
you think this would work with the local districts when you 
have different food, produce in different parts of the country, 
and how would this work, Dr. Cooper?
    Mr. Cooper. Well, I mean, I don't see this being earth-
shaking changes. We are already well on the road to asking 
people to provide healthy foods. In my--this is just my 
opinion, I know that when we put in what I call tougher 
standards for food and vending, we adapted very quickly. Of 
course, in my experience, we were in Louisiana and we were in 
Mississippi and so there is lots of fresh produce coming in. 
There may be other places where that is not the case.
    But I think, again, going back to the wealth of information 
about what could be possible to be looked at in terms of a 
healthy choice is great enough so that no matter where you were 
in this country, you could still provide that.
    Senator Klobuchar. And Ms. Huehnergarth, I was interested 
when you talked about the schools able to increase their 
revenues in other ways and that study. Could you elaborate on 
that more, the schools that were having healthier food and 
eliminated some of the unhealthy foods in the vending machines, 
how they were able to increase revenues.
    Ms. Huehnergarth. Well, first of all, if they took out 
unhealthy food from the vending machines, they would substitute 
healthier foods, like water, as Dr. Cooper told us before. And 
also sometimes they put in dried fruits or good granola bars. 
Kids will buy it. If they are hungry and they are staying after 
school, they will buy those foods.
    As far as changing out--taking unhealthy foods out of the 
cafeterias, once again, if you take them out, the kids will 
gravitate to the meal program, to the Federal meal program. 
They will buy those meals which are nutritionally balanced and 
those reimbursements will help balance the program.
    Senator Klobuchar. The other thing I have heard, and we 
have a lot of food producers in Minnesota, food processors, 
frozen foods, all these things, is that there is a very good 
argument that school districts could save money, not to say, 
which I was asking Dr. Cooper, that you have to have the same 
produce in every--you couldn't in every State, if you want to 
use local. But for some of these meals, like if they are going 
to have a pizza or they are going to have something like that 
as part of their school meal, that all of these different 
school boards requiring different requirements actually adds to 
the cost as opposed to having one standard. Could someone 
comment on that?
    Ms. Huehnergarth. Probably from a distribution standpoint, 
it strikes me if all the schools across the Nation have similar 
standards and they are all buying the same amounts in bulk, 
perhaps it would actually bring prices down. It seems to make 
sense.
    Senator Klobuchar. Mr. Garrett?
    Mr. Garrett. I guess I would share--I know being a school 
principal, and I was at a charter school, so I had discretion 
over what it is we purchased as long as it met both the State 
and Federal guidelines from a meal perspective. I do know that 
when you go in and you attempt to work with a vendor and you 
are asking them to create a customized package or a customized 
size specific to your local needs, the costs go up, and I would 
venture to say that if there is a national set of minimal 
standards and you begin you to talk about whether it is four 
ounces or six ounces, I would assume that it would allow 
organizations or companies to create more of a wholesale system 
of product offerings that make it much more universal, and 
that, I would believe, would drive the cost down from that 
perspective. Obviously, I don't work in that specific industry, 
but I know having been an administrator, it was much easier for 
me to pick something that met the nutritional guideline that 
fit within the size and scope as opposed to saying, I want 
something customized. It generally would cost us a lot more in 
order to do that.
    Senator Klobuchar. Mr. Felton?
    Mr. Felton. Senator, I mean, I would just be very cautious. 
Most of us, when we speak about school districts, we have in 
mind the experiences that we had growing up in terms of the 
size of the school and the wealth of the school and the poverty 
of the school. As we look across the nation, there is such a 
broad--I mean, we still have three one-room schoolhouse 
districts in America and we have school districts with tens of 
thousands within a single school. So the challenge for us is to 
begin to have guidelines, but that provide sufficient options 
so that those who must operate in one kind of environment are 
not totally restricted to the advantage of simply because they 
are not in a different kind of environment.
    What I understand is under consideration is not just 
vending machines. There has been a lot of talk about vending 
machines, and I think for the most part, parents and school 
boards and districts are working with those vending machine 
efforts, not perhaps to the level of some of my colleagues on 
the panel, but certainly we believe there is progress in the 
right direction.
    But when you talk about beyond the vending machines and you 
are talking about total availability of foods and beverages for 
events related to schools, 24 hours, 7 days a week, that is a 
different level of----
    Senator Klobuchar. But Mr. Felton, why wouldn't we want to 
have healthier foods available for----
    Mr. Felton. We do, as I said earlier in my statement, that 
school boards do support nutrition. This is not an issue of 
should our children be healthier. Of course, our children 
should be healthier. Should we----
    Senator Klobuchar. But the way we have been doing it hasn't 
been working. These kids are getting fatter and fatter.
    Mr. Felton. Well, I think, again----
    Senator Klobuchar. It is not working to not have some kind 
of national standard, and to me, when you have got a President 
that is focused on this, when you have got a Congress that is 
focused on it, you should say this is a national priority and 
we are going to look at schools as a whole because we know 
these kids are going to run and get a Twinkie, or if they are 
selling high-sugar things at every event, they are going to 
drink those. Why wouldn't we want to have things that were 
better----
    Mr. Felton. Well, again, our response is that those same 
public--those same citizens and residents elect those Federal 
officials and State officials and local officials. In our 
society, we should be responsive to those communities. And if 
we demand at the Federal level, these people should be----
    Senator Klobuchar. If it was working, I would say, fine, 
Mr. Felton, but it doesn't seem to be working for these kids, 
so--Mr. Garrett?
    Mr. Garrett. And I guess I would just share, Senator, the 
reality is this across the country. There is disparity 
regarding what is available. When you look at the breakfast or 
the lunch program specifically, there are some guidelines 
associated. But when you talk about these other items, so 
whether it is a vending machine, whether it is the a la carte 
service that is available at a school, whether it is what a 
school store may sell or the booster clubs, et cetera, the 
reality is there is no nutritional standard that is utilized 
whatsoever.
    And so to that end, we have got to get to the point from a 
Federal perspective that we offer something that is minimal, 
but it also is somewhat prescriptive to let folks know that 
there has got to be some basis. And I would contend, as you 
just alluded to, that parents across the country are saying, 
the local wellness policies, while we advocated for them and 
support them, are not doing the job and we need something that 
is going to be more stringent.
    Senator Klobuchar. I have gone way too far, but I just want 
to--long on my time, but I just want to say that I want to save 
money here and I see this as saving money in health care costs 
and saving money in how we buy, purchase food. If there are 
ways to save money here, we have got to find them right now. We 
are in tough budget times. And if there is a way to have 
healthier kids and have a more fair system, we have to move 
toward that system.
    Senator Casey. Senator Johanns?
    Senator Johanns. Thank you very much.
    I have found this to be very informational and instructive 
and, I think, a good diversity of views. Let me offer a 
thought, if I might. As a former Agriculture Secretary, former 
Governor, former mayor, former city council member, county 
commissioner, first of all, I would say, having been there at 
the Department, childhood obesity is a very, very complex 
issue. If it was as simple as banning vending machines, we 
would probably just ban vending machines, fix the problem, 
declare victory, and move on. It is not that simple.
    There are all kinds of things involved here. Physical 
activity has been mentioned. I released the first food pyramid 
that actually said, enhance your physical activity. You know, 
we had the stick figure running up the side of the pyramid. We 
came to the conclusion after studying this for months and 
months and months that you can enjoy a diversity of foods. You 
can enjoy meat and poultry and vegetables and even sweets if 
you do it in moderation. But that is often the problem. There 
was no moderation. There was no physical activity, and so 
obesity levels go up.
    We oftentimes hear at the national level, we think we are 
all wise and so we grab a policy. We pass it, and then we look 
back years later and then we say, well, why is it if we have a 
children's health care program that is really good--and 
incidentally, it is, we implemented it when I was Governor of 
Nebraska--but why is it that in some States, 60 percent of the 
kids aren't even enrolled when it is available and free? Do you 
know why? Because people don't grab hold of it. They see this 
another Federal mandate that we are trying to jam down their 
State's throat and they back off away from it and they don't 
promote it.
    So I think we have to try to figure out what the right 
balance is here. Mr. Felton, in your testimony, you raised the 
fact that under Congress in 2004, said that every school 
district participating in the Federal meals program had to put 
in place a nutrition education program, goals for physical 
activity, et cetera. How are schools doing out there with that? 
Are they making progress?
    Mr. Felton. I think the reality, sir, is that they are all 
making progress. It is just a matter of degree. I provided data 
in my testimony that suggested that, on average, we are still 
looking at probably 30 to 40 percent who are not at the level 
that we certainly had hoped that they would be at this point. 
What we are unsure of is what are the things that are 
contributing to that slow performance. But again, as an overall 
policy, they are there. In terms of having plans, they are 
there. In terms of beginning the implementation, they are 
there.
    But are they 100 percent where they should be? I think not, 
and we have not denied that fact. But we are saying that with 
the appropriate incentives and the appropriate leveraging with 
State governments and State funds, they could move to a 
different degree, and that would be acceptable.
    Senator Johanns. Let me follow that up with maybe a little 
bit more of a general question. You talked about the 
responsibility of school boards and administrators. We do want 
safe campuses. We do want clean campuses. We do want standards 
and performance and we want kids to be able to go on to college 
or trade school or whatever. Just a general question. Are we 
overloading the system?
    Mr. Felton. Well, in our view, we are overloading the 
system because we are expecting, again, the local school 
district to take on every issue facing society within a very, 
very limited resource budget. I think that, again, education is 
important, and we all understand philosophically in order for 
that child to succeed, all these things must be supported. But 
when the Federal Government on average invests only 10 percent 
of the total cost of education in America, someone has to 
question who is bearing this, and who is bearing this are 
States and local governments trying to figure out how to do 
what is best for all their kids given the limited resources 
available.
    Senator Johanns. You raise a very valid point, and I am 
running out of time, so I will wrap up with this thought, 
again, coming from a Governor and a mayor's perspective. It 
always seemed a little high-handed to me that the very junior 
partner in education, being the Federal Government, which 
provided, as you point out, and there was some more money in 
the stimulus funds that lasts for the next year or 2 years, but 
they provided about 9 percent, I think, nine or 10 percent of 
the funding. But it always seemed a little high-handed to me 
that they were the ones that felt they had the ability to force 
down the standards, that they knew best right down to the 
smallest school district in Nebraska. They knew best what was 
good for those kids. And when I talked about the smallest 
school district, in our State, we still have one-room schools 
that are, incidentally, doing a great job educating kids.
    But when you talked about the responsibilities we are 
putting on schools, I must admit, you touched a chord with me, 
because it is very easy to pass the law, as I said, only to 
look back years later and say, well, gosh, it isn't doing what 
we thought it would do because we have weighted the system down 
so aggressively, it can't perform. It is almost set up for 
failure, if you know what I am saying. Does that make sense?
    Mr. Felton. It makes sense very much, sir, and we have 
pointed out as we are engaged in other Federal legislation is 
to be very cautious about the additional burdensome 
administrative requirements and over-expectations for the very 
limited dollars that are out there. Again, I agree with you, 
school boards want to do the right thing and communities want 
to do what is best for their children, but we cannot continue 
to have a broad range of Federal requirements unless the 
Federal Government is willing to take on that financial burden 
with that.
    Senator Johanns. Thank you.
    Senator Casey. I wanted to--we have an obvious conflict 
here, the debate between national standards and the opposite 
point of view.
    Mr. Felton, I wanted to ask you about something that arose 
in the last couple of weeks when the School Nutrition 
Association representatives were in Washington. At that time, 
they talked about a whole range of issues, but in particular 
they asked about Federal standards to streamline packaging and 
beverage purchase. And I would ask you, in light of that point 
of view, in light of that desire that the School Nutrition 
Association has on packaging and beverage, how can we get 
there? How can we achieve that if we have nutrition standards 
being set district by district?
    Mr. Felton. Well, as I said earlier, sir, the--it is the 
environment in which we all operate that would suggest to us 
that guidelines can be issued and developed. The question is 
when they move from guidelines that provide flexibility to 
simply mandates which do not reflect or acknowledge that there 
will be circumstances that simply do not fit in certain school 
districts and certain communities. We believe that you can 
engage the community, you can engage evidence-based research to 
produce a broad range of guidelines in which local communities 
could operate in, and to the extent that they can, first of 
all, they want to do this. This is not a matter of not wanting 
to. But to the extent that they are able, based on other kinds 
of requirements, typically being influenced by the financial 
resources, then that has to be acknowledged.
    And so to have a requirement without the ability for 
flexibility or adjustments or, you know, circumstances that 
could certainly provide some relief, that what we do is indict 
those local school districts when it is no fault of their own.
    Senator Casey. And I have a real concern about guidelines 
not being enough.
    Mr. Felton. I understand.
    Senator Casey. We probably disagree about that, but, I 
mean, some of the basic data that has been cited already--Ms. 
Huehnergarth, you cite in your testimony that only 12 States 
have comprehensive school food and beverage standards that 
apply to the whole campus for the entire school day and at all 
grade levels.
    Ms. Huehnergarth. Correct.
    Senator Casey. I mean, look. Guidelines are great if people 
are adopting them and implementing them. I want to know if the 
other three witnesses have a perspective on the question of 
guidelines. Is that enough? I am assuming----
    Ms. Huehnergarth. I don't think----
    Senator Casey [continuing]. You will say no. What is your 
experience with how guidelines work or don't work, in your own 
experience?
    Ms. Huehnergarth. So you are talking voluntary guidelines, 
correct?
    Senator Casey. Mr. Felton, is that your----
    Mr. Felton. Well, I mean, whether we are talking guidelines 
or voluntary standards, the issue is once you have a Federal 
mandate that is standard and you tie Federal funding directly 
to that, even if you are calling it voluntary, it is de facto 
mandated. So I agree with you that we need to talk about 
whether we are talking about an options for school districts 
and States to participate or we are talking about a standard in 
which everyone is expected to meet, and that is a different 
answer.
    Ms. Huehnergarth. Well, as far as voluntary guidelines, I 
mean, wellness committees, as we have them set up in our 
country, issue a set of guidelines that are relatively 
voluntary and there really are no teeth behind them. So 
oftentimes I hear from parents in districts that have set what 
they think are strict wellness standards that they are just not 
being followed.
    I think the only real way to get real change in this 
country is to have uniform standards across the board. 
Voluntary is just that. It is for the most motivated, and not 
every district across the country is motivated or interested in 
making these changes.
    Mr. Garrett. And Senator, I guess I would offer to that, as 
well, the thought that it is either a top-down or bottom-up 
approach. Neither are going to work in isolation. So you have 
got to have both. And so just as my colleague just shared, when 
you talk about voluntary guidelines, the reality is we need 
some set of minimum standards across the board, and I think--I 
know on behalf of our constituencies, parents are asking for 
that, because what we recognize, even though we had advocated 
for local wellness policies, and many of our parents may be 
included in how you make those decisions and how the policy is 
structured, we recognize that they simply fail to meet the 
expectation. It is not meeting the need.
    And so short of action on a local level, we have got to 
figure out a different way and our belief would be developing a 
system of national standards that are minimally prescriptive 
that really enforce and have folks own up to the requirement of 
making sure the children have healthy options on campus.
    Mr. Felton. Well, much of our discussion, sir, reminds me 
of the hearings that local school boards have to deal with 
frequently, and that is parents are testifying before school 
boards and some parents feel this way and some parents feel 
another way. And I think that the concern is that while we do 
not disagree that some parents feel very, very strongly about 
standards, we know that there are many, many parents who feel 
very, very strongly that there should not be standards.
    What we want to be sure of is that whatever Federal 
legislation there is, that it acknowledges and recognizes the 
fact that down where the rubber meets the road, where school 
boards must implement programs with very, very limited budgets, 
that they aren't so restricted that this simply becomes another 
poor grading system of our public education.
    Mr. Cooper. Could I add something to that just real 
quickly, because----
    Senator Casey. Yes. We have to move to our next panel, 
but----
    Mr. Cooper. OK. I don't think voluntary guidelines are 
enough, but I do want to agree with Mr. Felton. I think we have 
overburdened our school districts with things, but I think our 
priority is in the wrong place. I think we ought to loosen some 
of the other things and take care of our children and the 
health of our children first. That definitely needs to be 
something that we all agree to.
    I don't think it is a financial burden. We have got lots of 
data to say that if we do this, it is not going to be a 
financial burden.
    And the last thing, I would think in a one-room 
schoolhouse, that would be the easiest place to be healthy. I 
mean, you have water, you have oatmeal, you have milk. You 
don't have all the distractions of the big city items.
    I just want to go back to the issue of it is about our 
children. It is not about safety codes. It is about if you 
don't do the right things for our children in terms of their 
healthy, they are not going to be riding those buses. They are 
not going to be coming to those buildings.
    Senator Casey. I want to know if either of our colleagues 
have any more questions.
    Well, thank you very much for your time and your testimony. 
We will go to our second panel.
    Our second panel, we have four witnesses. The first is Ms. 
Karen Ehrens. She is the Public Policy Chair of the North 
Dakota Dietetic Association in Bismarck, North Dakota.
    We will be moving left to right. Our second witness is Ms. 
Miriam Erickson Brown. She is the Chief Executive Officer of 
Anderson Erickson Dairy Company in Des Moines, Iowa.
    Our third is Mr. Hank Izzo, Vice President of Mars 
Snackfood U.S., Hackettstown, New Jersey. They have a couple 
hundred employees in Pennsylvania. I wanted to cite that for 
the record. Thank you for being here.
    And finally, Ms. Susan Neely, Chief Executive Officer of 
the American Beverage Association in Washington. She is outside 
the hearing room and will be in shortly.
    But welcome, and we are grateful for your presence here 
today and your taking the time to provide testimony.
    Ms. Ehrens, why don't we start with you and we will move 
from left to right. Thank you.

 STATEMENT OF KAREN EHRENS, PUBLIC POLICY CHAIR, NORTH DAKOTA 
          DIETETIC ASSOCIATION, BISMARCK, NORTH DAKOTA

    Ms. Ehrens. Good morning. I am Karen Ehrens, Public Policy 
Chair of the North Dakota Dietetic Association, which is an 
affiliate of the American Dietetic Association. Senator Casey, 
Ranking Member Chambliss, and Senator Lugar, thank you for your 
interest in this issue.
    My thoughts today are with my neighbors in North Dakota, 
South Dakota, and Minnesota as we are battling both blizzards 
and floods, and so my thoughts are there with my neighbors. But 
I am also very glad to be here today because this issue is so 
important.
    I am sure you have heard that between the 1970's and today, 
childhood obesity has doubled and in other age groups has 
tripled in these years. Kids face not only social and emotional 
health risks of obesity, but long-term risks, including the 
development of chronic diseases like heart disease, cancer, 
arthritis, and diabetes.
    I brought along some kids today. This is my daughter's 
fifth grade class in Bismarck, North Dakota. There are 21 kids. 
They were born at about the turn of the century, and if things 
continue on as they are today, seven of these kids have the 
potential of developing diabetes as some point in their lives. 
And I am here today----
    Senator Casey. I am sorry. What grade did you say?
    Ms. Ehrens. Fifth grade.
    Senator Casey. Fifth. I am sorry. Thank you.
    Ms. Ehrens. I am here to help these kids and all kids 
across the United States beat those odds.
    Despite the increase in childhood obesity, you have heard 
that many of our schools are continuing to sell candy, snack 
foods, and sweetened drinks to children through vending 
machines or a la carte, in school stores and as fundraisers. I 
can't help but wonder how we got to this place in time when we 
accept that it is normal to provide access to children to these 
foods throughout the school day and why it is that schools are 
considered a marketplace to begin with. Adults are raising 
money while gambling with children's health.
    It reminds me of what we are learning about the origins of 
the current financial crisis today. For the sake of profit in 
the present, people disregarded the long-term consequences of 
what their actions. Like toxic assets in the financial system, 
schools and other areas in our communities have been left with 
toxic environments.
    Competitive foods sold outside of meals aren't required to 
meet Federal nutrition standards that have been set for school 
meals. USDA policy does address food sold outside of schools 
minimally in the foods of minimal nutritional value policy. 
They can't be sold in the food service areas during school 
times, but those foods can be sold at any other place and time 
throughout the school day. These foods are on that list because 
they make only minimal contributions of nutrients, but 
calories, fat, salt, and sugars aren't counted to determine 
whether a food is of minimal nutritional value, as it is 
called. This is a 30-year-old policy that doesn't really make 
sense anymore.
    The sale of low-nutrition competitive foods outside of 
school meals is associated with increases in children's body 
mass index, or BMI as it is called. In fact, one study 
estimates that up to one-fifth of the average increases in BMI 
in teens in the 1990's can be attributed to the increased 
availability of these low-nutrition foods in schools.
    The sale of low-nutrition foods in schools is 
counterproductive, as we have heard this morning. When these 
foods are sold in schools, fewer kids eat school lunches. 
Healthy foods are displaced, and so kids' nutrient intake goes 
down. More food is left uneaten and thrown away. The 
availability of unhealthy foods also sends a mixed message when 
we are trying to teach kids through nutrition and health 
education in schools about the importance of choosing healthful 
foods as part of an overall healthy diet.
    The sale of competitive foods is especially harmful to kids 
who come from families with lower incomes. If students from 
families with limited budgets eat less healthy snack foods 
during the day instead of a free or reduced-price school meal, 
they lose out nutritionally in a bigger way than kids that come 
from more affluent families who might have the chance at some 
point during the day in or outside of school to access healthy 
foods.
    I am a member of our Bismarck Public Schools School Health 
Council. We are a team of teachers, administrators, parents, 
students, and health professionals who have been working 
together to write and implement a local wellness policy. It 
took us over a year and a half to write a strong policy, and 
that was as a result of the legislation that required schools 
to have local wellness policies in place.
    Our strong wellness policy in Bismarck did result in the 
removal of soda pop machines from our schools. Students may 
purchase milk, water, 100 percent fruit or vegetable juice 
during the day. At other schools in our State, however, 
children still have access to soda pop, other sweetened 
beverages, and snack foods.
    The legislation that put these local wellness policies in 
place was a big step forward and I thank you as Members of 
Congress for making that happen. However, some local wellness 
policies are strong and others sit filed on a shelf collecting 
dust. It also, as we found out in Bismarck, takes committed 
administrators throughout the school districts from school to 
school on a day-to-day basis to make sure that the policies are 
not just in place, but that they are carried out. And if there 
isn't a champion in a particular school, the policies may not 
get implemented at all.
    All children should have the opportunity to attend school 
in a healthy environment. Parents in small school districts or 
low-income school districts may not have the time, the 
resources, or the opportunity to advocate for strong nutrition 
policies. This can create health disparities between large 
districts and small districts or between well-funded districts 
and those with fewer resources.
    Schools are one of the key settings for public health 
strategies to address overweight and obesity. As Senator Harkin 
mentioned earlier, as Congress and the administration move 
forward with health reform this year, the ADA believes that 
establishing nutrition standards is a part of health reform and 
is directly connected to prevention. Nutrition is the 
cornerstone of prevention and it is not going to be just in the 
schools where these changes can take place or just in our 
communities or just in health care facilities. Because this 
problem is so great, it is going to take all of us in all of 
these different venues working together.
    We need financing systems and policies for health reform 
that support prevention and better managing chronic diseases. 
We have to equip children in school, starting at the very 
youngest ages, with education, motivation, and skills they can 
use to be healthy and environments that support their personal 
responsibility for making healthy choices.
    I encourage you to take that first step by establishing 
meaningful nutrition standards for all foods sold in schools. 
Thank you.
    [The prepared statement of Ms. Ehrens can be found on page 
72 in the appendix.]
    Senator Casey. Ms. Ehrens, thank you very much.
    I failed to mention before your testimony that each of you 
will have testimony that will be submitted for the record. If 
there is any way you can keep your remarks within the 5 
minutes, that would help. I should have said that earlier.
    Ms. Erickson Brown?

 STATEMENT OF MIRIAM ERICKSON BROWN, CHIEF EXECUTIVE OFFICER, 
       ANDERSON ERICKSON DAIRY COMPANY, DES MOINES, IOWA

    Ms. Brown. Good morning, Chairman Casey and committee 
members. I am Miriam Erickson Brown, President and CEO of 
Anderson Erickson Dairy in Des Moines, Iowa. We are a third-
generation family owned dairy, and I am here today representing 
two leading dairy organizations, the National Milk Producers 
Federation and the International Dairy Foods Association. I 
appreciate the opportunity very much to testify before the 
committee today on the nutritional standards for foods served 
outside of the Federal School Milk Programs.
    Because of the critical role of milk and milk products in 
children's diets, I ask the committee to consider three 
actions. First, make nutrient-rich foods a central part of the 
school nutrition environment. Then help increase consumption of 
nutrient-rich low-fat and fat-free milks and other milk 
products as part of the strategy to lower obesity rates in 
children. And finally, to establish consistent nutrition 
standards for all foods and beverages sold or provided in 
schools.
    Children and teens need dairy products. A range of dairy 
products are available in schools, including white milk, 
lactose-free milk, flavored milks, as well as yogurts and 
cheese. Milk is the top source of nine essential nutrients, and 
a six-ounce carton of yogurt contains as much protein as a 
large egg, more potassium than an orange, and less fat than a 
quarter-pound of lean ground beef. Cheese is a very good source 
of protein and calcium. Adding cheese to foods like vegetables 
and whole grains often helps students to increase consumption 
of these healthful foods. The complete protein found in 
products like milk, cheese, and yogurts promotes satiety, an 
important part of maintaining a healthy weight.
    Nutrition standards should help children and teens get more 
nutrients from their calories. Today's children are 
increasingly overweight and undernourished. Balancing caloric 
intake and nutrient consumption is still the most effective way 
to help students get their overall nutritional needs met.
    Nutrition guidelines for school meals are constructed to 
average meals over the course of a week. A similar approach can 
be effective for foods and beverages sold in the a la carte 
programs. Overly restrictive nutrition standards applied to 
individual foods may put nutrient-rich foods, such as yogurt 
cups and cheese sticks, out of the reach of our children, and 
this would be very unfortunate since the dietary guidelines 
indicate that these types of products are among the foods to 
encourage.
    The dairy industry has invested in extensive research and 
development of new ingredients and products that minimize added 
sugars, sodium, and allow for a variety of fat levels.
    So whether as a nutrient-rich ingredient in the foods kids 
like to eat or as an a la carte menu item, dairy foods come in 
a really wide variety of versions and packaging that provide 
unbeatable nutritional benefits. We encourage you to set 
school-wide nutrition standards that include milk, yogurt, and 
various types of cheese as a valuable and important part of a 
child's healthy diet in schools.
    Milk consumption plays a part in combating obesity. There 
appears to be a simple inverse relationship between rising 
obesity rates in kids and declining milk consumption. According 
to the Department of Agriculture research, for every one ounce 
decline in milk consumption, there is a 4.2 ounce rise in 
consumption of other beverages, resulting in a gain of calories 
and a loss of calcium and other important nutrients.
    Nutrition standards for all beverages available in schools 
should put milk on a level playing field with other beverages. 
That means, for example, in a vending machine that sells sports 
drinks, milk should also be available there in a variety of 
sizes and packaging. Offering flavored, low-fat, or fat-free 
milk is an excellent way to increase milk consumption among 
children and teens. According to a study in the Journal of 
American Dietetic Association, children who drink flavored milk 
drink more milk overall and are more likely to meet their 
calcium needs without consuming more total fat and calories as 
compared with their peers.
    The dairy industry is working very hard to develop flavored 
milk formulations that have fewer added sugars and total 
calories while maintaining kid appeal. But establishing 
guidelines that are overly restricted on added sugars would not 
only drive up costs significantly, but would also be difficult 
to achieve without the use of non- nutritive sweeteners.
    As school districts across the Nation struggle to provide 
healthy meals on tight budgets, many depend on additional 
revenues generated through a la carte sales. USDA has a very 
small program that subsidizes a la carte milk sales called the 
Special Milk Program and we would encourage the committee to 
increase its funding so that schools can be partially 
reimbursed for the milk that they serve to kids outside the 
school milk program.
    Consistent nutrition standards for all foods and beverages 
must be granted in the dietary guidelines. Today in schools, 
there are a la carte menus, vending machines, and they provide 
an array of competing foods. Yet only the USDA School Milk 
Programs operate under the direction of the dietary guidelines. 
We believe our students are best served by having one set of 
standards for foods and beverages available in our schools, 
which should apply equally across the country.
    In conclusion, we share your commitment to improving school 
nutrition. We will continue to find innovative ways to support 
the overall goals of the Dietary Guidelines, providing new 
products, new flavors, and new ways for students to enjoy the 
taste and goodness of dairy products in schools. Thank you.
    [The prepared statement of Ms. Brown can be found on page 
52 in the appendix.]
    Chairman Harkin. [Presiding.] Thank you very much.
    And now we will turn to Dr. Hank Izzo from Mars Inc. Mr. 
Izzo?

     STATEMENT OF HANK IZZO, VICE PRESIDENT, RESEARCH AND 
   DEVELOPMENT, MARS SNACKFOOD U.S., HACKETTSTOWN, NEW JERSEY

    Mr. Izzo. Thank you, Mr. Chairman and members of the 
committee. I am Dr. Hank Izzo, Vice President of Research and 
Development from Mars Snackfood U.S. and I appreciate the 
opportunity to testify today in support of updating our 
National School Nutrition Standards.
    I would like to begin by thanking Chairman Harkin for his 
consistent leadership on this issue. As you know, Mars worked 
closely with your office during the most recent farm bill in an 
effort to update these standards and we look forward to 
continuing to work with you on this very important issue.
    I would also like to thank Ranking Member Chambliss for his 
consistent support of Mars, Incorporated. We were very pleased 
to have the Senator visit our Georgia plant in August and look 
forward to continuing to build on this relationship in the 
future.
    Mars, Incorporated is a family owned U.S. company that 
manufacturers a wide range of confectionery, food, and pet care 
products. As one of the world's largest companies, we employ 
more than 15,000 associates in 40 factories across the United 
States. Mr. Chairman and members of the committee, Mars 
believes the time has come for Congress and the USDA to update 
our National School Nutrition Standards. Our position on this 
issue reflects our continuous commitment to health and 
nutrition space.
    Mars was the first chocolate company to stop advertising 
and marketing directly toward children under the age of 12 in 
2007. Last year, we implemented easy-to- ready front-of-pack 
nutritional labeling to help consumers make more informed 
choices about the foods they eat. Mars has also eliminated 
transfat, reduced sodium, and added more whole grains across 
our lines of products.
    Finally, we were proud to be one of the first companies to 
partner with the Alliance for a Healthier Generation. As you 
may know, the Alliance was created by the William Jefferson 
Clinton Foundation and the American Heart Association. The goal 
of the alliance is to empower kids to make healthy lifestyle 
choices. Mars was one of the first companies to partner with 
the Alliance in 2006.
    At that time, we pledged that we would not offer for sale 
any products in schools that do not meet the strict 35- 10-35 
nutrition standards, meaning less than 35 percent calories from 
fat, less than 10 percent calories are from saturated fat, and 
less than 35 percent sugar by weight. To meet this commitment, 
Mars was the only company to develop an entirely new line of 
products, our Generation Max line, which I am pleased to say 
fit those guidelines and are available for schools across the 
country today.
    Our commitment to the Alliance reflects Mars' beliefs that 
schools are unique environments that warrant special treatment 
when it comes to nutrition standards. At home, parents make 
decisions about the food. But at school, children make 
decisions about foods for themselves, such as products they 
might buy from a vending machine.
    We believe that new standards will help make sure that 
children across the Nation have access to a broad selection of 
nutritious foods at all schools. An updated National School 
Nutrition Standard will make it easier for schools and 
manufacturers to work together to help children make smart 
decisions about the foods they consume. It will provide some 
peace of mind, as well, for parents, knowing that foods for 
sale in a school meet nutrition guidelines.
    As you know, the existing standards for school vending have 
not been updated since the 1970's. Today, we understand so much 
more about the relationship between food and health, and Mars 
believes it is time to apply that knowledge to a new school 
nutrition standard. It is our opinion that the National School 
Nutrition Standard should be modeled after the guidelines 
issued by the Alliance for a Healthier Generation. We believe 
that 35-10-35 is a meaningful, practical standard that can be 
adopted and implemented quickly. We also believe it would 
generate significant support across the nutrition community and 
progressive companies in the food industry.
    Mr. Chairman and members of the committee, the challenge of 
improving the nutritional environment in schools is too 
important to get delayed by extended rulemaking by USDA. The 
time to act is now. We look forward to working with the 
committee to draft legislative language to ensure that these 
new standards are implemented as quickly as possible.
    As the father of four young sons and as a youth coach in my 
community and a volunteer in my community, and as an associate 
of Mars, Incorporated, I would like to take the chance to thank 
you for the opportunity to testify on this very, very important 
issue.
    [The prepared statement of Mr. Izzo can be found on page 94 
in the appendix.]
    Chairman Harkin. Thank you very, very much.
    And now we will turn to Ms. Susan Neely, President and CEO 
of the American Beverage Association. Welcome back.

  STATEMENT OF SUSAN K. NEELY, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, AMERICAN BEVERAGE ASSOCIATION, WASHINGTON, DC

    Ms. Neely. Thank you, Mr. Chairman. It is good to be back. 
And Senator Lugar and the committee, I do represent the non-
alcoholic beverage industry, all of our many brands, 
manufacturers and distributors across the country, and their 
220,000 employees. I am also the mother of an elementary school 
child and now a middle school child, so this is a topic that is 
near and dear to my heart for many reasons.
    It is a pleasure to be back and tell you how we are doing 
with the commitment that we as the entire beverage industry 
made with the Clinton Foundation and the American Heart 
Association to implement a common sense standard in schools 
across the country. I have been working in this policy space 
for 30 years now, inside government and outside government, and 
I can't say that I have never seen any industry sector commit 
so much and deliver in such a robust way on their commitment. I 
am very proud to give this report to you and to the rest of the 
committee.
    As you will recall, we made this agreement with the 
Alliance for a Healthier Generation in May 2006 and had three 
school years basically to implement it, so we are nearing the 
end of the third year and I can tell you we are doing very, 
very well. The policy that is being implemented draws heavily 
from obviously the expertise of the policy experts at the 
Clinton Foundation and the nutrition scientists at the American 
Heart Association, but also parents. Parents told us they 
wanted an age-appropriate policy. They wanted to limit choices 
for their younger children and they wanted more choices for 
their older children mirroring a more real-world experience, 
but still educating them on beverages that are healthy and low 
in calories, and that is what our policy does.
    I think our policy is very consistent with the recent 
research that was funded by NIH and published in the New 
England Journal of Medicine that really made the strong points 
that counting calories and achieving energy balance is the best 
way to manage weight, and I think our policy is certainly 
consistent with that science.
    The policy says milk, juice, and water only for elementary 
school and middle school children. Again, age appropriate, 
limiting choices for those younger children. And then for high 
school kids that are a little older, it is low-calorie, zero-
calorie, or portion capped beverages.
    So very specifically, the punch line I always want to get 
across is that we are taking full-calorie soft drinks out of 
schools across the country, and for beverages that are higher 
in calories but have other attributes, we are bringing the 
portion sizes down. So even the 100 percent juice comes in a 
limited portion size.
    This has been a lot of work. We have had to train marketing 
and sales staff so that they understand the policy and can talk 
to their school partners about it. We have had to amend tens of 
thousands of contracts. We have had to reformulate products. We 
agreed to package sizes that didn't exist, so we had to create 
those containers and change the vending fronts so that they are 
commensurate with what is actually in the machine.
    But the industry has been doing it and we are getting it 
done, and as of the last report, which we put out in September, 
along with President Clinton and Dr. Tim Gardner of the Heart 
Association, we had lowered calories in beverages shipped to 
schools by 58 percent. Eighty percent, or almost 80 percent of 
the schools under contract in this country are in compliance, 
or were in compliance. And 65 percent--there was a reduction of 
65 percent in full-calorie soft drinks in schools, so that is 
essentially at the end of the second year. I look forward to 
giving you our final report this fall after we are able to 
compile the data on our final year of implementation.
    So in closing, Mr. Chairman, I also, along with Dr. Izzo, 
thank you for your leadership. We were pleased to work closely 
with you and Senator Murkowski to try to update the standard as 
part of the farm bill and we are ready to continue to work with 
you to see that a common sense standard can be implemented in 
schools across the country. Thank you very much.
    [The prepared statement of Ms. Neely can be found on page 
100 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Neely.
    I apologize for having to leave and come back, but we have 
a hearing today on the nomination of Governor Sebelius to be 
head of Health and Human Services, so I just went over there 
for my questioning period and I told her I was chairing this 
hearing on the Child Nutrition Reauthorization bill, and I said 
while it is not directly under her jurisdiction, I would hope 
that as the new Secretary of Health and Human Services, that 
she would work closely with Secretary Vilsack and Secretary 
Duncan in helping us through this process, because I see it as 
a part of health care reform and how we deal with our kids in 
schools and the kind of food and beverages that they consume in 
schools. So I hope all of you see it in that light, also, that 
it is an integral part of our health reform measures that we 
want to enact, hopefully this year.
    Ms. Ehrens, in your written testimony, you talked about the 
changes that you made in North Dakota. I just again would like 
you just to express yourself again on the barriers that you 
encountered? We have heard sometimes we can't enact these 
school nutrition standards because they are going to hurt 
lower-income schools the most. They get the most from vending 
machines, and therefore we are going to hurt them the most. I 
have heard that a lot of times. But I think the testimony I 
have heard from others here is that that just isn't the case.
    Ms. Ehrens. Yes. Thank you, Chairman Harkin. As we heard 
earlier this morning, the actual amount in nickels and dimes, 
the profit margin is very small on these, and so I think that 
we are making a few nickels and dimes now and that the longer-
term cost to our health care system, there is no comparison. We 
also have heard that schools can still make money if they 
choose to sell foods to children, that they can still make 
funds if they sell healthier schools--excuse me, healthier 
foods in schools.
    So yes, I think that also the schools that we have in our 
State, and South Dakota are some of the most--school districts 
that struggle the most, and I think they are also the ones that 
need the standards the most so that there is a level playing 
field, because I don't think that healthy school environments 
should just be for schools with more resources, but that 
opportunity should be available to kids no matter where they go 
to school.
    Chairman Harkin. Let me ask another general question for 
all of you. I think it was in one of the written testimonies of 
the previous panel, and I didn't get a second round of 
questioning, but it has often been said that, well, if you take 
away all these choices for kids in school, especially high 
school, that the kids will leave the campus during the day and 
they will go to the local 7-Eleven or something like that and 
they will buy all that junk food there.
    Well, that raised a question in my mind. Isn't it up to the 
local school board to decide whether or not kids can leave the 
campus during the day? I don't know what is happening out 
there, but when I was in school, we couldn't leave in the 
daytime. When my daughters were in high school, they couldn't 
leave the campus during the daytime. They had to have a 
permission slip. If they left without a permission slip, it was 
a violation of school policy and there were certain punishments 
that followed from that. I don't mean physical punishments, but 
staying after school and things like that.
    So I just find it odd that because a school board decides 
to let kids go off the campus, that somehow we have to permit 
junk food to be allowed on the campus. I turn that around. Why 
don't you just have a policy that kids can't leave the campus 
during the day unless they have a permission slip from the 
principal? Am I missing something here?
    Mr. Izzo. Yes.
    Chairman Harkin. You are a father. I mean, am I missing 
something here?
    [Laughter.]
    Mr. Izzo. I concur. I agree.
    [Laughter.]
    Mr. Izzo. Absolutely.
    Chairman Harkin. After wrestling with it, I can't figure it 
out.
    Mr. Izzo. Absolutely. I think I will just go back to 
schools are a unique environment and a unique opportunity to 
offer more balanced choices to students. It is a unique 
opportunity to teach students the appropriate way to eat, what 
they should do from a physical activity standpoint, and it is 
up to us to make sure that the appropriate choices are in the 
schools. And I think it is important to outline in every school 
for every child.
    That is why Mars supports a National School Nutrition 
Standard, and we believe, again, that the Alliance for a 
Healthier Generation, the 35-10-35 guideline is a practical 
guideline. Actually, to the point made earlier, there are both 
large companies and small companies and medium companies 
participating in the Alliance and we have developed in a very 
short period of time over 300 products that fit these 
guidelines and we feel that by having a guideline, by codifying 
one, is extremely important to direct some of the research and 
development that will help to offer healthier products for kids 
in the schools.
    Chairman Harkin. Maybe you can enlighten me. I just asked 
my staff this. As I understand it, is it 35-10-35?
    Mr. Izzo. Yes.
    Chairman Harkin. So it is 35 percent, or no more than 35 
percent of the calories can be from fat----
    Mr. Izzo. Correct.
    Chairman Harkin [continuing]. No more than 10 percent of 
the calories can be from saturated fat----
    Mr. Izzo. Correct.
    Chairman Harkin. and no more than 35 percent by weight?
    Mr. Izzo. No, no more than 35 grams of sugar by weight.
    Chairman Harkin. No more than 35 grams of sugar by weight. 
So if you have a 50-gram bar, you can have 35 grams of sugar? I 
don't understand that. No. Is that right? It is 35 grams of 
sugar by weight, but what if you have a 50- gram bar or 60-gram 
bar? That means half of it can be sugar?
    Mr. Izzo. No, actually, it is 35 percent sugar by weight.
    Chairman Harkin. OK, that is what I thought. Thirty-five 
percent sugar by weight.
    Mr. Izzo. Right.
    Chairman Harkin. So that if I have a bar, one-third of it 
can be sugar? More than one-third can be sugar.
    Mr. Izzo. Less than 35 percent sugar by weight.
    Chairman Harkin. Well, but 35 percent is one-third. So one-
third of that bar can be sugar. I have a problem with that. 
When I heard that, I thought, well, that means that if I buy 
something, one-third of that can be sugar.
    As Ms. Neely has heard me say many times, and, of course, 
again, we have worked very closely on this and the standards we 
worked on were very good, but a 20-ounce soft drink has the 
equivalent of 15 teaspoons of sugar.
    Ms. Neely. Yes.
    Chairman Harkin. Well, I just have a problem, and help me 
think this through, that if one-third of something that a child 
can purchase at school, get in an a la carte line or a vending 
machine, is sugar, is that really a good measure? I mean, is 
that a good nutritional standard? I have trouble with that. I 
can understand the 35 percent of fat. I can understand the 10 
percent of saturated fat. But I can't understand why we would 
allow one-third of something that a child would buy to be 
sugar.
    I think we need to work on this. I think we need to work on 
this. I thought I understood it, and now that I do, I just--it 
seems to be very high, especially when we see the milk 
companies out there have done a lot--well, beverage companies, 
too, have done a job of reducing the sugar contents of their 
beverages. The milk industry has done a job. The beverage, soft 
drinks have done that, too, reducing their sugar down to, well, 
zero in many cases, down to very little in milk cases.
    And I just think that we need to look at that and I would 
ask your industry--and you have been a great leader. I mean, I 
said this to you privately, that what Mars has done has, I 
think, been kind of a gold standard in advertising to kids and 
everything. I don't mean to be a scold on candy. I like candy 
as much as anybody else, but, I mean, in moderation, obviously.
    So I just think we are going to have to look at the 35 
percent standard. Would this be lower than what it would be in 
a normal candy bar?
    Mr. Izzo. Absolutely, yes.
    On the guidelines, for example, the only products for us 
that would be allowed in school would be our Generation Max 
line, and that is one of the challenges that we have. Without 
guidelines, one of the issues that comes up is we can take the 
position that we will remove and not have those products in 
schools. Since we don't control the distribution angles or the 
distribution systems of the different distributors, they can 
make their way into schools, OK, a very unique environment. In 
addition, if it is left up to the local schools, they may very 
well say, we want to have those type of products in this unique 
environment, as well. So again, the need for codifying a 
guideline is extremely important from a national standpoint.
    Chairman Harkin. I would like to delve a little bit more 
into that one standard, the 35 percent standard, to see if that 
really is a good standard. As I said, I am making no judgment 
on it right now. I am just questioning about it.
    The other thing I just want to ask about the milk 
products--I hope you don't mind if I am a little partial to an 
Iowa company.
    [Laughter.]
    Chairman Harkin. I have been drinking AE milk since I was a 
kid and that is a long time ago.
    Ms. Brown. Thank you, Senator Harkin, Chairman.
    Chairman Harkin. We started drinking AE milk when we got 
rid of our cows.
    [Laughter.]
    Chairman Harkin. Before that, we drank our own milk from 
milk cows. But AE has been a part of our whole institution in 
Iowa for a long, long time. And so I am very supportive of how 
you have reformulated your products there and what we can do.
    You raised the issue, though, that I want to delve into, of 
using non-nutritive sweeteners, like Splenda, in milk. Is this 
widespread? Is it growing? Are there further opportunities to 
use it to reduce calories in other things that kids might eat?
    Ms. Brown. I think our main issue, Chairman Harkin, is that 
we would like to be able to provide kids with options for milk 
products in the school environment and flavored milks are a 
part of that. Children often will choose flavored milks over 
white milk----
    Chairman Harkin. Sure.
    Ms. Brown. [continuing]. And some flavored milks, if the 
restrictions are too low on calories or grams of sugar, then 
flavored milks just don't taste good and then you either have 
to use a non-nutritive sweetener or you have to have a higher 
standard for, or a higher-level standard for grams of sugar.
    So I think our issue is, let us provide the nutrient 
richness of flavored milks in the school environment, get the 
kids to drink more milk. Kids that drink flavored milk have 
lower BMIs or body mass indexes and they get the calcium that 
they need.
    Chairman Harkin. You stressed a lot on the non-fat and low-
fat milk.
    Ms. Brown. Yes.
    Chairman Harkin. Are we moving more to that in our schools?
    Ms. Brown. Yes. Sixty-seven percent of processors already 
provide non-fat and low-fat milk or alternatives in the school 
system and many of them have reformulated their products to 
meet those standards. But that also is happening in all 
different parts of our industry--in yogurts, in milks, in 
cheeses, so that there are a variety of options for many 
students.
    Chairman Harkin. It is a matter of taste and acquired 
taste. I mean, look, I grew up drinking whole milk.
    Ms. Brown. Yes.
    Chairman Harkin. Whole milk, a lot of cream in it. When I 
got to be an adult, at some point, I switched and started 
drinking non-fat milk and I thought it tasted terrible. I have 
been drinking it so long, now I think whole milk doesn't taste 
very good because I have been drinking non-fat milk for so 
long.
    Ms. Brown. Yes.
    Chairman Harkin. I think as kids acquire these tastes, it 
is hard to switch. So that is why, if kids start out early in 
life drinking non-fat milk or low-fat milk, then they get used 
to it and they like it.
    Ms. Brown. We have no problem with that. The dairy industry 
is fully supportive of low-fat and non-fat milk in the schools. 
Our issue is variety.
    Chairman Harkin. Yes.
    Ms. Brown. And I also have to add that the most popular 
grocery store milk is still 2 percent.
    Chairman Harkin. Yes. It tastes like whole milk to me.
    [Laughter.]
    Chairman Harkin. Well, thank you very much. I don't mean to 
belabor the point any longer.
    Senator Chambliss?
    Senator Chambliss. Thank you, Mr. Chairman.
    First of all, let me ask unanimous consent that two 
letters, one from ConAgra Foods and another one from Swann 
Company, along with written statements from the Potato Industry 
Child Nutrition Working Group and the National Frozen Food 
Institute be submitted for the record.
    [The information from Hon. Saxby Chambliss can be found on 
page 112 through 123 in the appendix.]
    Chairman Harkin. Without objection.
    Senator Chambliss. First of all, Mr. Izzo, the best thing 
about your company, in addition to being a great citizen of my 
State, is you have got the best looking NASCAR car out there.
    [Laughter.]
    Senator Chambliss. And we appreciate you recognizing that 
the most nutritious part of M&Ms are the Georgia peanuts that 
you put in them.
    Mr. Izzo. Yes, sir.
    Chairman Chambliss. Ms. Neely, in your written testimony, 
you referenced that the investment made by your member 
companies in terms of changing the product mix in the schools. 
Can you elaborate and characterize those investments for the 
committee and also share with us your views on what it would 
mean for your members if a new standard were to be imposed by 
Congress or USDA?
    Ms. Neely. Yes, sir. Thank you. Well, it has been a lot of 
work to implement the standard. We have had to reformulate 
products, create new package sizes to meet the portion 
limitations that are a key part of the guidelines, train 
thousands of marketing and sales staff so that, as happens when 
people sit in Washington and actually sign a piece of paper to 
agree to something, it has to get done across the country. 
People had to know how to do that.
    And renegotiate contracts. We are at almost 80 percent 
compliance now in schools under contract across the country, 
and that doesn't just happen. People have to know what the 
guidelines are and be able to talk to our school partners about 
it so we can get to the level of implementation that we have 
achieved. So it has been a major effort on the part of the 
industry and cost millions of dollars. But we are getting the 
results that we desired and that is a good thing.
    A lot of extra leadership from some of our companies. One 
company--I love this story--to ensure that a marketer, a member 
of the marketing team didn't sell a product that wasn't in 
compliance, they locked the buttons on the hand- held device 
that the salesman or saleswoman uses when they are talking to a 
school to ensure that only the products that are in compliance 
with the guidelines, they were able to sell those. So a lot of 
work that was done.
    We think it is a common sense standard. It is one supported 
by parents. It was developed with nutrition scientists and we 
think that is the standard that should be implemented across 
the land.
    Senator Chambliss. And how do you perceive the voluntary 
standard to be working at this point?
    Ms. Neely. Well, we think it is working well. We--as I 
said, almost 80 percent of schools under contract are in 
compliance, and that means a lot fewer calories are being 
shipped to schools in beverages shipped to schools. So the 
beverage landscape is changing and we are getting the results 
that were the intent.
    Senator Chambliss. Ms. Erickson Brown, one of my 
weaknesses, probably my biggest weakness nutrition-wise is I 
love butter pecan ice cream. I wish I could ask you about the 
nutritional value of that, but I don't think I will get into 
that. My doctor reminds me of that. It means an extra 30 
minutes in the gym for me, but I still enjoy it.
    Some nutrition groups have been calling for rules that 
would only allow the sale of non-fat milk in school and 
therefore prohibiting the sale of 1 percent and 2 percent milk. 
Are you concerned that this could impact the overall 
consumption of milk by school-age children?
    Ms. Brown. Yes, I am. Milk provides nine essential 
nutrients, unlike any other food, and three of those nutrients 
are currently lacking in children's diets--calcium, magnesium, 
and potassium. We need to provide students and children with 
options: flavored milks in a variety of butterfats, fat-free, 
and 1 percent. We do support having fat-free and 1 percent 
milks in the schools and limiting that, but we would like to 
have the option of having 1 percent milks.
    Senator Chambliss. I really share that concern with you. 
Unlike the Chairman, all I drink is 2 percent and it makes a 
huge difference. If you are used to drinking 2 percent or you 
are used to drinking something other than non-fat milk, boy, it 
is tough to get used to totally non- fat milk.
    Ms. Brown. That is right. It is.
    Senator Chambliss. Particularly for my grandchildren, who 
drink whole milk, by the way.
    Mr. Izzo, as a global company, can you please share any 
observations you have regarding school nutrition policies in 
other countries around the world that we should be aware of.
    Mr. Izzo. Yes. Thank you, Senator. If you look around the 
world, one of the challenges that I think is a global challenge 
is setting the right standards and getting the right specific 
guidelines outlined for any country. That is why for us, the 
way we look at this is, again, a school is a very unique 
environment, and by codifying guidelines that would set a 
standard that a food industry could work against and work with 
schools, work directly with schools and partner with 
organizations like the Alliance for a Healthier Generation, I 
think we will get ourselves ahead of the game. Each day that we 
wait is another day that we will have another issue in the 
marketplace in regards to childhood obesity, in regards to lack 
of education on health and wellness.
    So I think, globally, the obesity rates, a lot of people 
think that this is a U.S. issue. It is not a U.S. issue. It is 
a global issue. And even in countries where the obesity rates 
are low, they are starting to rise, especially for the area of 
children. So it is something that is a global issue and I think 
for us as a country that takes the lead in the world, we feel 
that we should take the lead on this issue and, again, codify 
school nutrition standards.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Chambliss.
    I always like to take these opportunities to just talk a 
little bit, again, about the standards and people's perceptions 
of things. Now, I know the Chairman knows this, but I can't 
tell you how many times I have talked with people about milk. I 
happen to be a big milk drinker, but non-fat milk.
    The one other issue that has arisen over the past few years 
in terms of our health in this country, and now we are seeing 
it show up in children, and that is consequences of too much 
sodium intake. Everything is just salted. And I have got to 
admit, I didn't know much about this, either, until later on. I 
have started now checking sodium contents of foods in stores 
and, I mean, it is just almost shocking, how much sodium goes 
into our foods, and then a lot into kids' foods. We are looking 
at this, also in terms of our guidelines and how we look at 
that, because kids are now showing up with hypertension caused 
by too much sodium. We have just become a sodium-saturated 
society. It is hard to find anything without just a whole lot 
of salt in it.
    So I am just wondering if you have any thoughts on that. I 
don't know, you said, I think, Mars is doing a lot. You are 
doing some stuff and Mars is doing some stuff, I am told, about 
reducing the amount of sodium.
    Mr. Izzo. Yes.
    Chairman Harkin. Different companies are.
    Mr. Izzo. Across our flavored rice products, the past 
several years, we have reduced sodium levels by 30 percent. 
Now, one of the biggest challenges on sodium, to your very 
point, is in many cases, sodium is augmented by how much salt 
you then throw on top of your foods that you eat. So obviously 
we can't control that piece but through education.
    One thing that we have done that we believe will help is we 
went to a global commitment to do voluntary front-of- pack 
labeling and back-of-pack labeling for key nutrients. So what 
does that mean? In the United States, we are required to have 
certain nutrients on the pack by the NLEA. What we did was we 
took those same nutrients, though, and brought them into a much 
bigger, bolder statement, larger fonts on the back of pack and 
calorie count on the front of pack. So whenever you pick up one 
of our products, you will be able to see that. Of the nutrients 
stated on the back of pack, again, it is fat, saturated fat, 
sugar, and salt.
    Chairman Harkin. Yes.
    Mr. Izzo. So the most important thing for people to know, 
we believe and we feel is to know what is inside the foods that 
they are eating. I think you so eloquently put it that you were 
very surprised when you looked at some of these products to see 
how much salt was actually in these products. The ability to 
know what is inside, we feel is extremely important for you to 
manage your dietary impact throughout the day. So that is a 
measure that we have taken on pack to take care of that. I know 
there are other companies out there, global food companies, 
that are going in that direction.
    We would invite other companies to join us in this, because 
as we create more of a standardized label that people can see 
and is very transparent and easy to understand, will help 
people, and children as they grow up and they learn about the 
right way to eat and how to eat foods and how to count not only 
calories, but count specific nutrients. It will teach them to 
lead a balanced, healthy lifestyle.
    Chairman Harkin. Any other observations? Yes, Ms. Ehrens?
    Ms. Ehrens. Yes, Senator Harkin. I believe that sodium is--
most of it that we eat as Americans comes from processed foods 
so that we do have little control over it unless we pay close 
attention. So we appreciate efforts by the industry to lower 
the sodium content and we think that the industry needs to 
really keep striving toward lowering the sodium content of 
foods.
    Also, just a point on your milk. I believe that 2 percent 
and 1 percent are percent by weight of the milk. But if you cut 
out--if you drink three glasses of milk per day, you can save 
up to 150 calories by making a switch from 2 percent to non-fat 
milk, and that is enough to at least not gain weight or cause 
some weight loss to take place.
    Chairman Harkin. I understand. I think most people, when 
they think of 2 percent milk, they are thinking of the fat 
content. That is what they are thinking about.
    But the sodium thing, I think in the reauthorization of the 
child nutrition bill, I have asked my staff to start looking at 
this and thinking about some kind of better guidelines for 
sodium content in all the foods that they have to buy for the 
kids in school. If they come to school and they get a school 
breakfast that has a lot of sodium in it--I am surprised how 
many cereals have high sodium contents. I am amazed at this. 
Then they have high sodium there and then they have a lunch 
that is high in sodium and then maybe they go home and have 
more. I mean, these kids, they are just getting too much sodium 
and it is showing up now in our health statistics among 
hypertension in kids and high blood pressure in young kids.
    So I think we are going to have to pay some attention to 
that, also.
    Is there anything else that anybody wants to add to this 
before we adjourn? I just appreciate all of your testimonies, 
your leadership, all of you, in so many areas of this. We look 
forward to working with you through the year. We are going to 
get this bill done, working with the House side. I know the 
administration is interested in having a good reauthorization 
bill done, looking ahead, and I think we do see it--well, I 
speak only for myself. I see this really as a part of our 
overall health reform. This fits right in with that, and if we 
get our kids started early in eating well and getting the right 
nutritious foods, they are just going to have healthier lives 
later on, part of prevention and wellness.
    So I congratulate all the industry people who are here. We 
worked very closely on this. We didn't quite get it done in the 
farm bill, but we will get it----
    Ms. Neely. We are ready to go again.
    [Laughter.]
    Chairman Harkin. We will get it done this time. So thank 
you all very, very much.
    With that, the committee will stand adjourned.
    [Whereupon, at 12:06 p.m., the committee was adjourned.]

</pre></body></html>
